<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Feinstein, Mikulski, 
Stevens, Cochran, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING III, 
            UNITED STATES AIR FORCE, DIRECTOR

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I am pleased to welcome Lieutenant General 
Obering, Director of the Missile Defense Agency (MDA) and 
Lieutenant General Campbell, who wears three hats--Commanding 
General of the U.S. Army Space and Missile Defense Command, the 
U.S. Army Strategic Forces Command and the Joint Functional 
Component Command for Integrated Missile Defense. They are here 
before the subcommittee today to discuss the fiscal year 2008 
budget request for missile defense.
    Gentlemen, it's been a banner year for missile defense. 
After nearly 25 years and over $90 billion spent, I believe we 
can finally say, with confidence, that we have turned the 
corner. The United States has a system in place that could be 
operational if needed. Indeed, when North Korea tested multiple 
missiles last January, parts of the missile defense system were 
on alert, tracking, and ready to respond.
    You should be proud of the agency's accomplishments. In the 
past year alone, the ground-based missile defense (GMD) 
interceptor, the aegis sea-based missile defense system and the 
terminal high altitude area defense (THAAD), the theatre high 
area altitude defense system all succeeded as designed at 
intercepting targets which simulated attacking missiles.
    Today we face a new challenge. It is time to get these 
missile defense capabilities operational and fielded. It's time 
to move from research and development to fielding a system that 
is fully tested and fully capable. We have the pillars in place 
to do this with GMD, aegis, and THAAD. These programs require 
our full attention.
    It is these programs that will serve as a basis for our 
missile defense capabilities for decades to come and I'm 
pleased to see that the fiscal year 2008 budget request goes a 
long way toward accomplishing this. However, there are many 
issues that I hope you will address today regarding the nearly 
$9 billion budget request before the subcommittee, including 
the need for the European Third Site, our progress and 
cooperation with the Japanese on missile defense and the 
introduction of a space test bed in the missile defense 
program.
    I thank both of you for appearing before the subcommittee 
and I look forward to hearing your remarks but before we do, 
may I call upon the vice chairman, Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman and 
Generals. I apologize for being a little late. You've heard the 
chairman's statement and if there is anything that stands out 
about this program is that it's been totally supported on a 
bipartisan basis by this subcommittee and I stand by and 
endorse everything that the chairman has said. I look forward 
to some questions when we get to that point. But I too, 
congratulate you on the continued success of this program and I 
look forward to working with you on it. Thank you.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. I'll be brief. I 
just want to welcome both General Campbell and General Obering 
and I agree with you, Chairman Inouye, that we have turned the 
corner after many years and I look forward to their testimony 
today. I think we will see more progress in this same area. 
Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator. General Obering.
    General Obering. Good morning, Mr. Chairman, Senator 
Stevens, Senator Shelby. I'm honored to have this opportunity. 
I ask that my written statement be entered into the record.
    This morning, I would like to emphasize very briefly, four 
key points. First, the ballistic missile threats are real and 
growing. Now is not the time to cut back America's efforts to 
defend our homeland, deployed forces, allies, and friends from 
these threats.
    Second, the integrated layered missile defense system that 
thousands of Americans have been developing, fielding and 
deploying, works and is having an impact. Third, we are 
developing and fielding missile defense capability at an 
unprecedented pace within our budget constraints, using the 
flexible acquisition authorities that you have given us.
    And fourth, we are gaining widespread international support 
and cooperation. In the last year, as you said, we have seen 
aggressive ballistic missile development and test efforts in 
North Korea and Iran as well as terrorist use of ballistic 
rockets in attacks against Israel.
    So far this year, the pace of foreign ballistic missile 
testing is roughly twice that of last year, reflecting a 
determination to acquire these valuable weapons, a value 
generated by the historical act of deployed defenses against 
them. Therefore, it is critical that we continue to develop, 
field, and deploy missile defenses to devalue these weapons.
    Last summer, when North Korea launched several missiles 
capable of striking our allies and deployed forces in the 
Pacific with an intercontinental ballistic missile (ICBM) 
believed capable of striking the United States, we were able to 
provide the President an option--an option to activate an 
integrated missile defense system, a system that I have 
confidence in. This confidence is borne in our test program, 
which accounts for almost $2 billion per year.
    We have taken on the challenge of realistically testing a 
complex system that covers more than 10 time zones and that 
intercepts warheads, both in the atmosphere and in space. The 
Director of Operations Test and Evaluation and I have approved 
an integrated master test plan, which includes criteria for 
operational realism.
    In particular, this past September, we conducted a long-
range intercept flight test that involved the use of 
operational crews, operational fire control, and fielded 
software. We also used operational sensors and an operational 
interceptor launched from an operational missile field. Over 
the past year, the Missile Defense Agency has conducted more 
than 35 major tests and successfully met our primary test 
objectives in 15 of 16 flight tests and yesterday, we 
successfully launched the near field experimental satellite 
into low Earth orbit.
    Overall, since 2001, we have built a record of 26 
successful hit to kill engagements and 34 attempts. This does 
not mean that there may not be setbacks in the future, because 
our test schedule remains very aggressive. For the remainder of 
this year, we plan to conduct two more long-range intercept 
flight tests, four aegis flight tests, two terminal area 
defense flight tests, one Israeli arrow test, and dozens of 
ground tests.
    We have also been successful in the unprecedented fielding 
and deployment of capability to the warfighter, thanks to an 
underlying acquisition approach that gives us the flexibility 
to manage risk while continually upgrading the program.
    As a result, in just over 30 months, since June 2004, we 
have in place 17 long-range interceptors in Alaska and 
California, modified 16 aegis ships for missile tracking with 7 
of those ships able to launch the 20 sea-based interceptors 
that we have fielded. We have upgraded three land-based early 
warning radars, delivered two transportable radars and one 
massive sea-based X-band radar and we fielded command and 
control capabilities in Hawaii, Alaska, Colorado, Nebraska, 
Washington, and the United Kingdom. Using our approach, we have 
achieved in 2\1/2\ years what would have taken two or three 
times longer with the standard process.
    Our acquisition flexibility has also allowed us to 
implement numerous cost saving measures. We have reduced 
unneeded overhead by approximately $1.8 billion from 2006 to 
2011. More specifically, we saved enough money in the ground-
based mid-course program alone to purchase four more 
interceptors. I believe that rolling back this flexibility 
would be a grave mistake for the warfighters and for the 
taxpayers.
    The inclusion of U.S. Strategic Command and the other 
combatant commands in our development, testing, training, and 
fielding activities has been another key to the success. We 
worked with them closely and the services from defining and 
prioritizing requirements to transition and transfer plans for 
operations and support.
    Based on this solid foundation, we are now requesting $8.9 
billion for 2008, with more than 75 percent of those funds or 
$7.1 billion going to near-term capabilities and the remainder 
of $1.8 billion allocated to develop defenses against the 
threats that may loom tomorrow.
    This budget reflects a three-part strategy. First, we seek 
$5.9 billion to maintain and sustain an initial capability that 
includes the fielding of up to 44 long-range interceptors in 
Alaska and California, deployment of up to 132 sea-based 
interceptors on 18 aegis ships, deployment of two mobile 
terminal air defense fire units with 48 interceptors and 
expanding our critical command, control, battle management and 
communications element. Sustaining its overall capability is 
approaching $1 billion per year.
    Second, we seek $1.6 billion to close the gaps and improve 
our capability to keep pace with growing threats. This 
objective does include the fielding of 10 long-range 
interceptors and a mid-course radar in Europe to defend our 
deployed forces and allies in that theatre as well as providing 
additional protection to the United States. We have entered 
into discussions with Poland and the Czech Republic to host 
these assets and we have been engaged with our North Atlantic 
Treaty Organization (NATO) partners and the Russians.
    In fact, just last week, I appeared before both the NATO 
Council and the NATO Russia Council to brief our proposals for 
missile defense. The Secretary General said it best afterward 
when he stated that the NATO Alliance is in absolute agreement 
that there is a shared perception of the threat, which must be 
addressed, and that NATO is committed to indivisible security. 
He went on to state that there were no objections voiced in the 
Alliance to the United States, Czech, and Polish proposal and 
that the proposal would not change the strategic balance 
between the United States and Russia.
    Finally, we request $1.4 billion for the third component of 
our strategy to develop options for future threats, options 
which include boost phase defenses and the ability to provide 
persistent space-based global detection and tracking. Missile 
defense is global in nature and we have an increasing number of 
allies and friends joining us in our efforts.
    Japan remains one of our closest partners in missile 
defense. Together, we have successfully flight-tested new nose 
cone technologies and agreed to co-develop a larger version of 
the standard missile 3. We are working closely with the United 
Kingdom and Denmark to upgrade existing early warning radars. 
We have also signed cooperative agreements with Australia and 
Italy and continue to work with Israel on both medium- and 
short-range missile defenses. And we have begun collaborating 
on missile defense with many, many other nations.
    In closing, I want to emphasize that the threat we are 
facing from ballistic missiles is real and growing. As we look 
to the gathering clouds of the threat on the horizon, I believe 
that we are reaching a critical point. Moving ahead strongly 
with our allies in building missile defenses, we can send a 
strong message to our enemies. Investing in ballistic missiles 
is just not worth it. We can and will destroy them if used 
against us or our allies. But if they continue to threaten us 
or our allies, I want to ensure that we have an answer for the 
people when they ask us, as they did last summer, can you 
defend us against these weapons?
    We have overcome setbacks and technical hurdles, as you 
said but thanks to the support from this subcommittee and 
Congress, we are succeeding in our mission and we have 
absolutely no reason to slow down. Thank you very much for the 
opportunity to appear before you and I look forward to your 
questions.
    Senator Inouye. I thank you very much, General Obering.
    [The statement follows:]
     Prepared Statement of Lieutenant General Henry A. Obering III
    Good morning, Mr. Chairman, Senator Stevens, distinguished members 
of the committee. It is an honor to present the Department of Defense's 
fiscal year 2008 Missile Defense program and budget.
    I am pleased to report that 2006 was a year of significant 
accomplishment for all aspects of our missile defense program. We made 
substantial progress in developing, testing and fielding an integrated, 
layered Ballistic Missile Defense System (BMDS) to defend the United 
States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight.
    Of the $8.9 billion we are requesting in fiscal year 2008, we will 
allocate $7.1 billion for near-term efforts and $1.8 billion for 
longer-term programs. In the near-term, we seek to build on, and 
sustain, our current capability to defend the homeland against limited 
long-range ballistic missile threats and protect allies, friends and 
deployed forces against short- to medium-range threats. To achieve this 
goal, we intend to complete by the end of 2011 the fielding of up to 44 
Ground-based Interceptors (GBIs) in Alaska and California; enhance our 
early warning radars in Alaska, California and the United Kingdom; 
integrate the Sea-based X-band (SBX) radar into the BMD system; deploy 
up to 132 sea-based Standard Missile-3 (SM-3) interceptors on 18 Aegis 
engagement ships; and expand our command, control and battle-management 
network by establishing three new command and control suites at U.S. 
Strategic Command, U.S. Pacific Command and U.S. Northern Command.
    We also seek to close gaps and improve our capability to defend 
against a growing Iranian threat. We will continue the initiative we 
began this year to field 10 long-range interceptors and a midcourse 
radar in Europe beginning in 2011. This initiative is essential for a 
robust, layered defense of the homeland against long-range threats from 
the Middle East. It will also extend this defense to our deployed 
forces, allies and friends in the region who currently have no defense 
against longer-range ballistic missiles. To improve our capabilities to 
defeat more complex threat suites, our Multiple Kill Vehicle (MKV) 
program will allow us to engage multiple warheads and countermeasures 
with a single interceptor launch. Delivering this volume kill 
capability is important to the warfighter and is one of our top 
priorities.
    For the longer-term, we are developing the Space Tracking and 
Surveillance System to provide a persistent, near-real-time global 
detection, tracking and fire control capability. This system will 
significantly increase the BMD system's agility and flexibility to 
respond to future worldwide emerging threats. We also continue to 
pursue boost-phase intercept capabilities in order to increase the 
``depth'' of our integrated, layered system. Boost-phase defenses 
promise to increase our intercept opportunities and destroy enemy 
ballistic missiles when they are most vulnerable. The Airborne Laser 
(ABL) remains our primary boost-phase program. Based on the Defense 
Science Board's recommendation, we're continuing the high-acceleration 
Kinetic Energy Interceptor (KEI) booster development effort as an 
option in the event ABL does not meet critical knowledge points in its 
test program. The United States-Japanese cooperative development of a 
follow-on SM-3 interceptor to give the Aegis system an intercontinental 
ballistic missile (ICBM) intercept capability, a robust sea-based 
terminal capability to defeat shorter-range threats, a modest 
experimental Space Test Bed, and our continuing advanced technology 
efforts all support the goal of closing capability gaps in the system.
                   the evolving security environment
    This past 4th of July, millions of Americans were made aware of 
just how real the threat from ballistic missiles is and how vital the 
missile defense program is to our national security. With the launches 
of the short-, medium- and long-range missiles by North Korea, missile 
defense became an urgent matter overnight. Because of the efforts of 
thousands of Americans dedicated to this program, we were able to 
activate a missile defense system to protect the United States had a 
threat emerged.
    In November 2006 and January 2007 Tehran conducted several short- 
and medium-range ballistic missile and rocket launches. In the November 
exercises Iran demonstrated for the world its offensive capabilities 
via televised broadcasts.
    North Korea and Iran dedicate significant resources to acquiring 
ballistic missiles, to include new medium- and intermediate-range 
systems capable of reaching forward-deployed U.S. forces and our allies 
and friends. North Korea continues to work on intercontinental-range 
systems capable of reaching the United States. In addition, our 
intelligence community assesses that Iran would be able to develop an 
ICBM before 2015 if it chose to do so.\1\ With the missile firings over 
the past year, they have also demonstrated the ability to conduct 
coordinated launch operations. But they are not alone.
---------------------------------------------------------------------------
    \1\ Vice Admiral Lowell E. Jacoby, USN, Director, Defense 
Intelligence Agency, ``Current and Projected National Security Threats 
to the United States,'' Statement before the Senate Armed Services 
Committee, 17 March 2005, p. 11.
---------------------------------------------------------------------------
    In 2006 there were about 100 foreign ballistic missile launches 
around the world. This year to date, the pace of testing is about twice 
that of last year--a trend reflecting the determination of many 
countries to acquire these capabilities.
    The actions of North Korea and Iran this past year demonstrate the 
determination of these rogue regimes to achieve this capability and 
potentially weapons of mass destruction to further aggressive ends. 
With the proliferation of ballistic missile technology, we expect to be 
surprised by unexpected and more robust threats. The missile defense 
development program recognizes that we must stay a step ahead of a 
dynamic threat.
             u.s. ballistic missile defenses--a report card
    In January 2002, just a little more than 5 short years ago, the 
Secretary of Defense directed the agency to restructure the missile 
defense program to deal with the urgency, enormity and complexity of 
developing, testing and building a missile defense system. This bold 
initiative required the adoption of an evolutionary acquisition 
strategy to be executed by a single agency, a strategy that relies on 
continual assessments of the threat, available technology, and what can 
be built and fielded to provide a militarily useful capability in an 
urgent manner.
    Having capitalized on our steady progress since the 1980s, the 
dedicated men and women of the Missile Defense Agency and our 
industrial partners delivered to the Combatant Commanders in 2004 an 
initial missile defense capability to defeat the near-term long-range 
missile threat. Supported by an extensive command, control, battle 
management and communications (C2BMC) infrastructure, we connected 
additional system elements to the fire control system and put in place 
trained system operators, the logistics support infrastructure and 
support centers required for this limited operational system.
    To date, we have made significant, and in many ways, unprecedented 
strides to deliver a capability where none existed before. Since 2002 
we have fielded and completed the initial integration of land- and sea-
based interceptors, mobile and fixed sensors and command, control, 
battle management, and communications suites to deliver one of the most 
complex and comprehensive defensive capabilities ever envisioned. And 
we did so while sustaining an aggressive development program that 
continues to feed new technologies into the system.
    Mr. Chairman, the missile defense investments of 4 administrations 
and 11 congresses are paying off. With the initial deployment of a 
limited missile defense capability, the era of absolute vulnerability 
of our country to a long-range missile attack came to a close. This is 
important, because I believe a capability against even a single reentry 
vehicle has significant military utility. The modest long-, medium-, 
and short-range defensive capabilities we have today can help reduce 
the more immediate threats to our security and enhance our ability to 
defend our interests abroad.
    Long-Range Defenses.--As part of our strategy to protect the United 
States from ballistic missiles launched from North Korea or Iran, we 
have emplaced high-performance interceptors in missile fields at two 
sites and integrated them into the system. The system's Ground-Based 
Interceptors use hit-to-kill technologies to destroy intermediate- and 
long-range ballistic missile warheads in space, in the midcourse phase 
of flight. These are the only weapons we have available today to defeat 
longer-range threats once they have been launched. With 18 interceptors 
emplaced today, we plan to increase interceptor inventories at Fort 
Greely, Alaska and Vandenberg Air Force Base, California up to 24 by 
the end of this year.
    The system today will receive a cue from Defense Support Program 
satellites or from one of 16 long-range surveillance and track Aegis 
destroyers that could be stationed near the threat region. These 
satellites and ships can pass detection or cueing data across 
communications lines into BMD system communication and battle manager 
nodes located in Fort Greely and Colorado Springs. Today we stand ready 
to locate and track threats coming out of East Asia using the Cobra 
Dane radar in the Aleutians and the upgraded early warning radar at 
Beale Air Force Base, California.
    Powerful X-band radars located on a mobile platform in the Pacific 
Ocean and at Shariki, Japan can provide precise tracking and 
discrimination to increase the probability we will destroy any lethal 
target. A 2006 independent assessment concluded that the Sea-Based X-
band radar, which deployed to the Pacific at the end of 2005, is 
sufficiently rugged to operate in the rough seas of the northern 
Pacific. These conditions were validated this past winter when the SBX 
experienced extremely hazardous weather with negligible impact. Also in 
2006, we deployed the first forward-based X-band radar to Japan, 
accelerating its deployment and supporting C2BMC equipment to its 
operational location in Shariki Japan, achieving partial mission 
capability in October 2006.
    Short- to Medium-Range Defenses.--Since 2004 we have expanded and 
improved terminal and midcourse defenses to defeat short- and medium-
range threats from land and sea. Aegis ships have been periodically put 
on station in the Sea of Japan to provide long-range surveillance and 
tracking data to our battle management system. We began fielding 
Standard Missile-3 interceptors in 2004, evolving to a more capable 
interceptor. With our growing inventory of Standard Missile-3 
interceptors on Aegis ships, we can provide a flexible sea-mobile 
capability to defeat short- to intermediate-range ballistic missiles in 
their midcourse phase. In 2005 we upgraded the first Aegis cruisers for 
the engagement mission. Today we have available three Aegis BMD 
engagement cruisers and four engagement destroyers.
    Having successfully transitioned the Patriot Advanced Capability-3 
(PAC-3) to the U.S. Army in March 2003, we continue to maintain 
configuration control and work with that service to improve and upgrade 
PAC-3 and Medium Extended Air Defense System (MEADS) performance. 
Today, PAC-3 fire units are being integrated into the forces of our 
allies and friends, many of whom face immediate short- and medium-range 
threats.
    Integrating the System.--For the ballistic missile defense system 
to work effectively, all of its separate elements must be integrated 
across several Combatant Commands. This capability allows us to mix and 
match sensors, weapons and command centers to dramatically expand 
detection and engagement capabilities over what can be achieved by the 
system's elements operating individually. Combatant Commanders can use 
the C2BMC infrastructure to enhance planning, synchronize globally 
dispersed missile defense assets, and manage weapon inventories. These 
capabilities also can provide our senior government leadership 
situational awareness of ballistic missile launches and defense 
activities. Today we have in place a planning capability within U.S. 
Strategic, Northern, and Pacific Commands.
    Supporting the Warfighter.--This past year we continued work with 
U.S. Strategic Command and other Combatant Commands to train missile 
defense crews at all echelons, ensuring that they can operate the 
ballistic missile defense system if called upon to do so. We 
established a BMD operations watch officer to provide real-time BMD 
situational awareness, operational status, and coordinate the 
configuration of the system and have executed a series of exercises, 
which involve temporarily putting the system in a launch-ready state.
    We have set up a process to collaborate with the Combatant 
Commanders and the military services to define and prioritize 
requirements as the system evolves. For example, we did not have a sea-
based terminal layer planned for the program until the Commander of 
U.S. Strategic Command identified this as a desired capability. Once 
this need was identified, we worked with the Navy to define and budget 
for near- and far-term programs for a sea-based terminal defense. We 
also have worked closely with the services and the Office of Secretary 
of Defense on transition and transfer activities to address operations 
and support of the system elements. The Deputy Secretary of Defense 
identified lead military departments for eight elements of the BMDS, 
and the Navy has just agreed to take on lead service responsibility for 
the Sea-Based X-Band Radar. We have developed transition and transfer 
plans with the services and the Combatant Commands. These plans capture 
both agreements and the roles and responsibilities associated with 
evolving operations and support activities. This collaboration with the 
warfighter includes training, testing, wargaming, and conducting 
exercises and simulations, all of which help demonstrate and improve 
the capability and reliability of the missile defense system.
    BMD System On Alert.--As I stated earlier, when the North Koreans 
conducted their launches last summer, for the first time in the history 
of the United States, we had the capability to defend our people 
against a long-range missile had it been necessary. Working closely 
with U.S. Strategic Command's Joint Functional Component Commander for 
Integrated Missile Defense, we successfully took the system out of the 
development mode and handed it over to the warfighter for operation. 
This activation of the system last June helped us to refine procedures 
and taught us invaluable lessons about system operations.
    Alert activities included activation of the ground-based midcourse 
defense and the deployment of a missile defense capability to the Sea 
of Japan. We had Aegis long-range surveillance and track ships 
stationed east and west of Japan during the missile firings. Data 
collected from these sensors would have helped identify whether the 
long-range launch was a ballistic missile or a space launch vehicle and 
would have provided tracking data to the system. The C2BMC situational 
awareness displays were operational and being monitored at the various 
commands.
    We also accelerated the capability of the forward-based X-band 
radar in Japan for data collection. The Sea-Based X-band radar was 
stationed off Hawaii and similarly standing by for data collection. At 
the time, the forward-based radar and the sea-based radar were not 
integrated into the system. Given these events from last summer and our 
ability to bring the system on line and prepare it for emergency use, I 
am very confident that the system would have operated as designed had 
the Taepo Dong-2 threatened the United States.
    We have an operational system today because of the capability-based 
acquisition approach we have followed since 2002. This approach 
leverages collaboration with the warfighter community throughout 
development and testing to the point where we transition or transfer 
capabilities to the operators. Some have asserted that our non-
traditional approach lacks discipline, transparency, and/or 
accountability. I do not agree. I think the progress we have made to 
date in fielding a missile defense capability speaks for itself and 
justifies the continuation of this approach. Had we followed the 
traditional acquisition approach, we would not have had an operational 
capability to respond to the potential threat from North Korea. Had we 
followed the traditional approach, I believe we truly would have 
``delivered less at a higher cost.''
    The missile defense program is highly scrutinized by the Department 
of Defense, the Congressional Budget Office, the Government 
Accountability Office, and the Congress. In 2004 Congress required the 
Missile Defense Agency to submit a cost, schedule and performance 
baseline for each block configuration of the BMDS being fielded. We 
have complied with this law every year, describing our baseline in 
terms of 2-year increments of capability called fielding blocks. From 
an acquisition process perspective, I understand that we are blazing 
new trails, and the information we provide is therefore different from 
what people are used to seeing. I understand the onus is on us to 
clearly convey to Congress that we are fielding ballistic missile 
defense capability in a responsible and transparent manner, and I am 
committed to doing that. I have therefore directed my staff to complete 
a review of our current approach and look at ways to better describe 
our baseline program.
    use of procurement funds would set back missile defense progress
    In 2002 the Department of Defense directed the Missile Defense 
Agency to use research, development, test and evaluation (RDT&E) 
funding to develop and field a single integrated missile defense system 
outside the traditional acquisition process. This direction gave MDA 
the ability to make knowledge-based decisions and incrementally fund 
system element and component quantities, combinations, and upgrades to 
support accelerated fielding and keep pace with an evolving, uncertain 
threat.
    The use of RDT&E funds makes possible a development and fielding 
approach that: provides flexibility to pursue multiple development 
paths, reducing risk inherent in BMD system engineering by allowing MDA 
to scale back on less promising efforts; demonstrates what works and 
what does not; allows for flexible responses to changes in the evolving 
threat; and facilitates technology-based improvements during 
development and fielding phases.
    The flexibility in the current missile defense program was highly 
advantageous for the Nation this past summer when the North Koreans 
launched short-, 
medium-, and long-range ballistic missiles, making missile defense an 
urgent matter overnight. If we had used procurement funding at the 
start of the missile defense program in 2002, we arguably would not 
have had a system to activate to meet the possible threat to our 
security this past July. The average major defense acquisition program 
has a cycle-time of 6 years between Milestone B (program start) and 
Milestone C (authorization for production). Assuming the BMDS had 
received Milestone B approval in 2002, MDA would have been seeking 
Milestone C approval in 2008 before it could begin procurement and 
fielding of the long-range missile defense system. The traditional 
acquisition process simply does not accommodate the development and 
fielding of a complex and military useful ballistic missile defense 
capability on an urgent timeline.
    However, if we were told today to use procurement funds to field 
BMDS assets rather than incrementally fund them across the fiscal year 
defense program, as we have done for the last 4 years with 
congressional support, I think it is important to understand the 
impacts. Procurement funding would complicate the ability to respond 
with agility to the evolving threat and limit MDA's ability to 
implement efficiencies and improvements in the BMD system.
    The required use of procurement funding also would narrow 
significantly the content of program work (decreasing our development 
options for meeting future threats). For example, MDA would be forced 
to pay for all current on-going fielding programs in 1 fiscal year or 
stretch out the fielding of near-term assets over a longer period of 
time than currently planned. This requirement could add as much as $3.3 
billion in additional cost to our projected budget in fiscal year 2009 
alone. To pay for this shortfall in one fiscal year, MDA would have to 
terminate, for all practical purposes, most of its development efforts, 
eliminating options for future capabilities and compromising the 
current system engineering and testing processes. The alternative would 
be to delay current fielding activities of critical assets such as the 
Ground-Based Interceptors, the Standard Missile-3 and the Terminal High 
Altitude Area Defense System. And this would only be the start.
    Changing the funding approach also would restrict or eliminate the 
agency's ability to make responsive schedule and funding adjustments, 
as was done with the flight-test stand-down in early 2005. Another 
example was the adjustment we made to the Standard Missile-3 missile 
fielding as a result of design issues associated with the third stage 
rocket motor and the Divert and Attitude Control System. The ability to 
make these adjustments allowed the agency to implement key 
recommendations of the Mission Readiness Task Force that have since put 
the long-range test program back on track. The restrictions in program 
flexibility imposed by the use of procurement funding would have 
greatly limited the agency's ability to accelerate last year's 
deployment of the forward-based X-band radar to Japan and hindered the 
actions it took to recover Ground-Based Interceptor and THAAD 
interceptor production capabilities following the 2003 booster motor 
plant explosion at a key contractor facility.
    I remain committed to working with the Congress to develop a new 
approach allowing the continued use of RDT&E funding while providing 
Congress with the information it needs to ensure accountability and 
oversight.
               building confidence through spiral testing
    Testing under operationally realistic conditions is an important 
part of maturing the system. We have been fielding test assets in 
operational configurations in order to conduct increasingly complex and 
end-to-end tests of the system. While the BMD system is a developmental 
system, it is available today to our leadership for activation to meet 
real world threats. Given this dual function of the test bed, the 
operational test agencies and the warfighting community are very active 
in all phases of our test planning, execution, and post-test analysis.
    Using criteria established by the agency's system engineers and our 
warfighters, all system ground and flight tests provide data that we 
and the operational test community use to verify the system's 
functionality and operational effectiveness. Our flight tests are 
increasing in operational realism, limited only by environmental and 
safety concerns. Each system test builds on the knowledge gained from 
previous tests and adds increasingly challenging objectives, with the 
downstream goal of devising scenarios that test elements of the system 
from end-to-end. This spiral test approach increases knowledge of, and 
confidence in, the system performance while maintaining safety and 
minimizing artificiality.
    Last year I explained that we had several concerns with quality 
control and reliability that led to two successive Ground-based 
Midcourse Defense test aborts, problems that we have since 
comprehensively addressed. The independent review team concluded that 
the deficiencies in systems engineering, ground qualification testing, 
flight test readiness certification, contractor process control and 
program scheduling were not systemic and did not compromise initial 
defensive capabilities. I testified last year that I did not view the 
failures as major technical setbacks.
    Coming off the very successful fly-out of the operational 
configuration long-range interceptor in December 2005, we conducted a 
long-range intercept flight test last September that exceeded our 
objectives. That complex test involved an operationally configured 
interceptor launched from an operationally configured silo at 
Vandenberg Air Force Base, operational sensors, and operationally 
trained crews manning the fire control consoles. The test demonstrated 
the functionality of the Exo-atmospheric Kill Vehicle and the ability 
to engage a threat-representative target using the Upgraded Early 
Warning Radar at Beale Air Force Base in California. After the kill 
vehicle acquired the target launched out of the Kodiak Launch Complex 
in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. While it was not hooked into the system, 
we also demonstrated the powerful contributions the Sea-Based X-band 
radar can make in the areas of tracking and discrimination. This was 
our most operationally realistic, end-to-end test of the system 
involving the Ground-based Midcourse Defense element to date.
    Over this past year the Missile Defense Agency conducted more than 
35 major tests and successfully met our primary test objectives in 14 
out of 15 flight tests. In fact, during a 90-day period last summer, we 
achieved successful hit-to-kill intercepts in the lower atmosphere with 
the Patriot Advanced Capability-3, in the upper reaches of the 
atmosphere with the Terminal High Altitude Area Defense element, and in 
space with the Aegis Standard Missile-3 and the Ground-Based Midcourse 
Defense elements. Including tests of the Patriot Advanced Capability-3, 
we achieved seven hit-to-kill intercepts of ballistic missile targets 
in eight attempts in 2006. Since 2001, we have built a record of 26 
successful hit-to-kill engagements in 34 attempts. Our test plans for 
2007 and 2008 will continue to use more complex and realistic scenarios 
for system-level flight tests.
    We plan three more long-range interceptor flight tests by the end 
of this year that continue to push the edge of the envelope in testing 
complexity. All tests will continue to use operationally trained crews 
and the operational launch site at Vandenberg. We plan to integrate the 
Sea-Based X-band radar into the system for the intercept test in late 
summer as we continue to expand the number of sensors available to us 
to cue the system and engage targets.
    On June 22 of last year, we successfully used a U.S. Navy Aegis 
cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. As we had done in the 
past three flight tests, we did not notify the operational ship's crew 
of the target launch time, and they were forced to react to a dynamic 
situation. The role of the crew is an important part of our ability to 
engage hostile missiles, and last December we increased test complexity 
by attempting a simultaneous engagement of aerial and ballistic targets 
and by using operator-selectable parameters to allow for automatic 
identification of targets. A crew member changed the ship's doctrine 
parameters just prior to target launch. This modification prevented the 
ship's fire control system from conducting the planned ballistic 
missile and aerial target engagements. The primary target was a very 
short-range ballistic missile, and thus there was insufficient time for 
manual engagement. When the Standard Missile-3 interceptor failed to 
launch, we aborted the launch of the Standard Missile-2 interceptor. 
This is another example of why we conduct tests--to expose flaws in the 
system and wring out operational procedures. We are working to resolve 
the problem we experienced in the test last December and expect to 
conduct it again this spring.
    We plan four more Aegis intercept flight tests in 2007. We will 
again demonstrate the integration of the Aegis BMD weapon system into 
the overall BMD system and evaluate the ship crew's performance in 
executing an operationally realistic BMD mission. Early this summer, we 
will attempt an intercept of a separating, medium-range target using 
the Standard Missile-3 Block IA interceptor. Later this year, we will 
demonstrate the ability to engage two near-simultaneous short-range 
unitary targets. Also late in 2007, as part of our growing partnership 
with Japan, a Japanese Maritime Self Defense Force Kongo-class ship 
will attempt to engage a medium-range ballistic missile separating 
target using the Block IA Standard Missile-3 interceptor. This will be 
the first such firing by a maritime ally. In 2008 we will engage a 
separating intermediate-range ballistic missile target using off-board 
sensor information to launch the interceptor. We will also attempt a 
second sea-based intercept test with our Japanese partners.
    As I mentioned earlier, flight-testing involving the redesigned 
Terminal High Altitude Area Defense (THAAD) interceptor continued last 
July with a successful engagement of a unitary target high in the 
atmosphere. In September we again sought to demonstrate the performance 
of the new missile and the ability to integrate it into the BMD system, 
but we were unable to do so following the failure of the target 
missile. This past January and earlier this month, we again 
successfully destroyed short-range targets. These endo-atmospheric 
engagements were the first such tests of the THAAD interceptor at the 
Pacific Missile Range Facility. To demonstrate the capability of the 
THAAD fire unit to intercept at different altitudes in the atmosphere 
and in low exo-atmosphere, we plan one more intercept test in space 
later this year against a unitary target. In 2008 we plan to 
demonstrate interceptor capabilities against more stressing targets. We 
will conduct two intercept tests involving the THAAD interceptor, one 
against a separating target in space, and the other against a 
separating target high in the atmosphere. Further, the first test in 
2008 will include the launch of two THAAD interceptors. The Missile 
Defense Agency will also participate in Patriot combined developmental/
operational tests as well as Air Force Glory Trip flight tests.
    In 2007 we will continue with our successful ground testing, which 
involves warfighter personnel and test hardware and software in the 
integrated system configuration to demonstrate system connectivity and 
interoperability. Upcoming tests will verify integration of the sea-
based, forward-based, and Fylingdales radars. The funds we are 
requesting will support additional capability demonstrations and 
readiness demonstrations led by the warfighting community. We currently 
cannot test and train on the system while it is in full operational 
mode. To address this problem, we are developing a capability to 
support continued research, development, test, evaluation, and 
maintenance while concurrently sustaining operational readiness.
    Based on the many tests we have conducted to date, we maintain our 
confidence in the BMD system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. We continue to 
work closely with the Director, Operational Test & Evaluation, 
Operational Test Agencies, and Combatant Commanders to characterize the 
effectiveness and readiness of the system at every stage in its 
development and fielding. We are developing the capability to conduct 
concurrent test, training, and operations, which will allow Combatant 
Commanders to keep the system in operational mode while we test, train, 
and make improvements to the system.
                       bmd system fielding plans
    Maintaining and Sustaining the Capability.--The top priority of the 
Missile Defense Agency is to maintain and sustain the deployed initial 
capability to stay ahead of the North Korean and Iranian threats. This 
means improving long-range capabilities for homeland defense and moving 
forward with initial defenses to protect allies and U.S. interests 
abroad against shorter-range ballistic missiles.
    Our program strategy completes the fielding of ground-based 
interceptors in Alaska and California. We will begin construction in 
2007 of a third missile field at Fort Greely and accelerate delivery of 
interceptors. We also will begin increasing the number of interceptors 
available at Vandenberg Air Force Base from two to four. An additional 
fifth silo at Vandenberg will be dedicated to testing. We will have up 
to 30 long-range interceptors deployed by the end of 2008. For 
midcourse capability against the long-range threat, the Ground-based 
Midcourse Defense element budget request for fiscal year 2008 of about 
$2.5 billion will cover continued development, ground- and flight-
testing, fielding and support.
    To address short- to intermediate-range threats, in 2006 we added 
one Aegis engagement cruiser, for a total of three, and three Aegis 
engagement destroyers. As we convert destroyers this year to add the 
engagement capability, the number of long-range surveillance and track 
(LRS&T) ships will fall from 10 at the end of 2006 to 7 and our total 
number of fully BMD-capable Aegis engagement ships (cruisers and 
destroyers) will climb to 10. By the end of 2008, we plan to have 
delivered 13 Aegis engagement destroyers and 3 engagement cruisers and 
40 interceptors to inventory. System tests will involve further 
demonstrations of the sea-based interceptor, and we will continue 
enhancing the system's discrimination capability. For fiscal year 2008, 
we are requesting approximately $1.044 billion to continue Aegis BMD 
development and testing.
    To supplement the Cobra Dane and Beale radars, we will finish the 
integration work on the Royal Air Force Fylingdales early warning radar 
in the United Kingdom. It will be fully operational by the end of this 
year. This radar will provide coverage against Middle East launches 
against the United States and our allies in Europe. Our fiscal year 
2008 budget request for BMD radars is $758 million. These funds will 
continue forward-based radar integration work and complete construction 
of a permanent basing site at Shariki Air Base. We will also have 
available for deployment a second forward-based X-band radar.
    With this year's budget request of $247 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements leading to 
a robust, net-centric missile defense capability that fights as a 
system. We have made incredible progress in this area despite 
decrements in funding over the past couple of years. Our ability to 
defend against highly lethal threats or operate in a very complex, 
stressing battle environment spanning multiple theaters requires all 
missile defense elements, which may be spread over thousands of miles, 
to work together as a ``team.'' Today we can do that. I am very proud 
of what our national team for integration has achieved. We will press 
on with the development of the Global Engagement Manager at the Pacific 
Air Operations Center and integrate into the system the forward-based 
radar in Japan, the Sea-Based X-band radar, and the Fylingdales radar. 
We plan to install additional planning and situational awareness 
capabilities to facilitate executive decision-making in the European 
Command and the Central Command by 2009.
    Closing Capability Gaps.--Our long-term strategy is to make the 
system more robust, reliable and flexible in order to close gaps in our 
missile defense capabilities. In line with our multilayer approach, the 
missile defense program in fiscal year 2008 and beyond will expand 
terminal defense protection, upgrade and improve midcourse 
discrimination and firepower, strengthen the capability of the BMDS to 
defeat coordinated attacks, and place increasing emphasis on boost 
phase defenses.
    The missile defense program will improve coverage of the United 
States and, for the first time, extend coverage to Europe against 
longer-range ballistic missiles by forward-deploying BMD assets to 
Europe. Currently, our allies in Europe do not have defenses against 
Iranian medium- and long-range ballistic missiles, and the BMD system 
currently deployed to counter the North Korean long-range threat is not 
technically configured to protect cities in Europe. Therefore, a number 
of allied governments have expressed interest in deploying defenses 
against this threat. We have agreed with Poland and the Czech Republic 
to begin focused discussions on the deployment of long-range 
interceptors and a midcourse discrimination radar. If negotiations are 
successful, we plan to modify the X-band radar currently located on the 
Kwajalein Atoll and relocate it to a site in the Czech Republic.
    The deployment of this X-band radar in Europe will complement 
sensor assets deployed in the United Kingdom and Greenland. In addition 
to increasing the number of long-range interceptors emplaced at missile 
fields in Alaska and California, we are hopeful that successful 
completion of negotiations with the government of Poland will allow us 
to start emplacing 10 two-stage configurations of our flight-proven 
ground-based interceptors in Poland beginning in 2011. Central Europe 
provides an optimal location for the interceptors and radar to protect 
all European countries threatened by threats greater than 1,500 km out 
of Iran. These missile defense assets would complement and enhance 
future North Atlantic Treaty Organization missile defense systems. By 
devaluing Iran's longer-range missile force, European missile defenses 
could help dissuade the Iranian government from further investing in 
ballistic missiles and deter it from using those weapons in a conflict.
    There has been some discussion that the defense of all of Europe 
from ballistic missile attack would be more cost-effective if we were 
to replace the fixed missile field, midcourse radar and forward-
deployed radar currently planned for Europe with mobile missile 
defenses. By our calculations, this is clearly not the case. There are 
serious drawbacks to planning an architecture of mobile systems in lieu 
of the currently planned fixed architecture.
    First, the current configurations of Aegis BMD and terminal high 
altitude area defense do not have the ability to counter 
intercontinental ballistic missiles (ICBMs) without extensive and 
costly modifications. Likewise, mobile system sensors for Aegis BMD and 
THAAD cannot provide equivalent radar coverage of Europe. They are 
designed to be augmented with other sensors, like the European 
Midcourse Radar, and their interceptors are designed to engage slower 
short- to medium-range ballistic missiles systems. Without sensor 
augmentation, Aegis BMD ships, using the SM-3 Block IIA (currently 
under development and not available until after 2015), would protect 
approximately only half of Europe against longer-range missiles. 
Furthermore, the THAAD interceptor would require extensive redesign to 
be able to intercept long-range threat missiles. Importantly, if these 
mobile short-range systems achieved an intercept, the intercept would 
occur in the lower parts of the atmosphere where post-engagement 
effects, such as chemical, biological, or nuclear weapon fallout and 
electro-magnetic pulse effects would be of great concern to cities and 
other civilian areas.
    Second, the protection of Europe with mobile systems such as Aegis 
BMD and THAAD would come at a cost that is more than five times greater 
to field and sustain when compared to the fixed BMD site plan. It will 
require 10 Aegis ships on station with SM-3 Block IIA interceptors to 
provide 40 to 60 percent coverage of Europe (central Europe would not 
be protected). To provide this persistent partial coverage, it would 
require four rotations for a total of 40 ships dedicated to the 
European defense. Assuming 20 interceptors per ship, we would need 200 
SM-3 interceptors for the ships on station and 200 SM-3 interceptors 
for rotation. This mobile system alternative will initially cost $17 
billion, with recurring costs around $600 million per year. The command 
and control infrastructure required to support this mobile alternative 
would make this approach even more cost-prohibitive. Of note, we did 
not consider the significant impact on our Aegis ship force levels in 
this calculation.
    The cost for deploying 80 THAAD batteries (the minimum estimate to 
protect key assets Europe) would be approximately $40 billion with 
recurring costs at roughly $2.4 billion per year. The cost to field 
this additional force structure and the need to negotiate with each 
host nation also makes this option prohibitively expensive and not 
viable.
    I believe our current proposed architecture will provide the best, 
most cost-effective protection for our European allies, and it can be 
deployed beginning in 2011. It would protect all European nations 
threatened by longer-range weapons from Iran. The cost of our European 
missile defense component proposal of $3.5 billion non-recurring, and 
$250 million per year to operate and maintain, is far less expensive 
and more effective than the $16 billion, or more, and the $600 million 
per year required for a less-effective mobile ballistic missile defense 
architecture for Europe. The mobile alternative also would not provide 
any additional protection for the United States.
    We also are developing the Multiple Kill Vehicle (MKV) system to 
upgrade long-range interceptor performance by attaining a volume kill 
capability to defeat multiple reentry vehicles and midcourse 
countermeasures. We have restructured the MKV program to develop land- 
and sea-based interceptor payloads by the middle of next decade. 
Besides bringing several kill vehicles to the fight, the MKV system 
will provide critical tracking and discrimination information to other 
system sensors and interceptors and assist with kill assessment. We 
have requested $265 million for this work in fiscal year 2008.
    This budget submission also continues the upgrade of the Thule 
early warning radar in Greenland and its integration into the system by 
2009. Together with the radars in California, Alaska and the United 
Kingdom, the Thule radar will ensure full coverage of the United States 
against threats from the Middle East. We will also continue to enhance 
additional forward-based X-band radar capabilities in Japan and other 
operating locations to meet warfighter needs.
    We also will bolster defenses against short- to medium-range 
threats by increasing the inventory of Aegis BMD sea-based interceptors 
from 86 to 132 by 2013. Upgrades to the Standard Missile-3 include 
improvement of the Divert and Attitude Control System and 
discrimination performance. We also will provide a full upgrade of the 
Aegis BMD weapon system to improve its ability to detect, acquire, and 
intercept more diverse, longer-range threats. At the end of the decade 
we will integrate Aegis BMD with the Navy-developed Open Architecture 
system to remain compatible with Navy ships following modernization.
    We will field two, and future plans call for four, Terminal High 
Altitude Area Defense (THAAD) fire units, which consist of radars and 
96 interceptors. THAAD will provide transportable terminal protection 
for our troops and areas along the U.S. coasts or on the territories of 
our allies. The first unit will be fielded in 2009, with subsequent 
units fielded by 2012. We are requesting $858 million in fiscal year 
2008 for THAAD development and fielding.
                   developing options for the future
    We do, of course, need to address far-term threats. In simplest 
terms, that means managing a program that balances initial, near-term 
fielding of system elements with long-term development. I continue to 
be a firm believer in the balanced program, because it neither 
compromises our security in the present nor short-changes our future 
safety. This approach recognizes the urgency of fielding capabilities 
to address threats we face today and the necessity of continuing 
support for vigorous development activities to prepare for tomorrow's 
ballistic missile challenges to our security.
    I am in strong agreement with the members of the House Armed 
Services Committee, who recently concluded that the country's missile 
defense program ``must be scalable in response to the evolution of the 
threat.'' \2\ The Missile Defense Agency plans to develop options for 
incrementally fielding elements of the ballistic missile defense 
system. We will do this by leveraging a key U.S. strength, our 
technological advantage, and by building with our allies a foundation 
of global access and response.
---------------------------------------------------------------------------
    \2\ House Armed Services Committee, Committee Defense Review 
Report, December 2006, p. 104.
---------------------------------------------------------------------------
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach to demonstrate a specific capability.
    There are several important development efforts funded in this 
budget. A significant part of missile defense investment has been 
devoted to the development of terrestrial boost phase defenses to 
supplement currently fielded midcourse and terminal defenses. An 
operational Airborne Laser (ABL) could provide a valuable boost phase 
defense capability against missiles of all ranges. We restructured the 
Kinetic Energy Interceptor (KEI) activity to focus on development of a 
high-acceleration booster, one that is more capable than any booster we 
currently have in inventory. Either ABL or the Kinetic energy booster 
will be selected as the primary boost phase program upon completion of 
critical knowledge points before 2010.
    Over the past two years we have demonstrated in ground tests the 
power and reliability of the ABL high energy lasers. We also have 
tested the command and control and passive target detection systems in 
flight. In 2006 we refurbished the high energy laser optics and 
completed integration and ground testing of the low-power tracking and 
beacon illuminator lasers. This year we will flight test the beam 
control and atmospheric compensation lasers against a cooperative 
airborne target. Earlier this month, we reached an important milestone 
in this program when we conducted the first in-flight test of the laser 
targeting system, successfully demonstrating a technology that will 
help track a boosting ballistic missile and identify the most 
vulnerable sections on the rocket motor case to be hit by the high 
energy laser. We recently completed major structural modifications to 
the Boeing 747 aircraft to support installation of the high energy 
laser, which will continue in 2008. The $516 million we request in 
fiscal year 2008 will complete integration of the high energy laser 
modules with the modified aircraft as we prepare for a lethal shootdown 
of a ballistic missile target in 2009. Despite the continued technical 
challenges we face, I remain optimistic that we can produce an 
operationally effective directed energy capability.
    We have made good progress in our high-acceleration booster 
development effort. This past year we successfully conducted the first 
static firings of the first and second stage boosters and demonstrated 
overhead non-imaging data fusion processing within the prototype fire 
control component. This high acceleration booster also would enhance 
the performance of the currently deployed ground-based interceptor. 
Within the restructured program we will maintain options to develop a 
land-mobile launcher and fire control system as well as an option for a 
sea-based capability. We are requesting $214 million in fiscal year 
2008 for this activity.
    We plan to develop space-based sensors to provide a persistent 
identification and global tracking capability. A small constellation of 
Space Tracking and Surveillance System (STSS) satellites will enable 
operation of the missile defense system worldwide, independent of 
terrestrial-based sensors along the threat trajectory. These sensors 
will be able to detect and track enemy ballistic missiles and payloads 
through all phases of flight and close the system fire control loop 
globally. We are on track to launch two demonstration satellites in 
November 2007. Next year, following on-orbit check-out, these 
demonstration satellites will perform live target acquisition, tracking 
and handover. We are requesting approximately $319 million in fiscal 
year 2008 to execute the Space Tracking and Surveillance System 
activity.
    We have learned a great deal from the ground-testing of the STSS 
Block 2006 sensors in representative, thermal vacuum conditions. We 
have proven that this class of sensor will achieve the necessary 
sensitivity to support intercepts. Given the long design timelines for 
space systems, we are requesting funding in fiscal year 2008 to begin 
work on the follow-on constellation. Postponing the start of this phase 
of the program will delay our ability to achieve a necessary global 
sensor and fire control capability.
    This month we are launching a satellite, the Near Field Infrared 
Experiment (NFIRE), to collect high resolution infrared phenomenology 
data from boosting targets. Following preparation of the satellite once 
it is on-orbit, in August and October 2007, we will conduct tests using 
live ballistic missile targets. The data from NFIRE will be fed into 
simulation models and contribute to future sensor designs.
    We will continue work with Japan to increase Standard Missile-3 
range and lethality. The development of the 21-inch Standard Missile-3 
Block IIA interceptor will increase our capability to engage longer-
range ballistic missiles from Aegis BMD platforms and help close a 
capability gap around 2015. We have requested $74 million in fiscal 
year 2008 as part of our cooperative work with Japan to purchase long-
lead items required for the development of this interceptor.
    Another capability gap exists in terminal defense against short- 
and medium-range ballistic missiles. For the past 2 years, the Navy and 
the Missile Defense Agency (MDA) have collaborated on plans for a sea-
based terminal defensive layer. In May 2006 we demonstrated the 
feasibility of developing a limited near-term capability against a 
short-range ballistic missile using a modified Standard Missile-2 Block 
IV interceptor. Based on this demonstration, we are upgrading the Aegis 
weapon system, and the Navy is upgrading the SM-2 Block IV missile, the 
goal being to install a terminal engagement capability on 18 Aegis BMD 
ships beginning in 2009. We also are examining with the Navy options 
for developing a far-term improved capability to address short- and 
medium-range threats. Our fiscal year 2008 request for sea-based 
terminal development work is $75 million.
    The next generation of C2BMC capability will be essential if we are 
to close gaps in our command seams. As we deliver more sensor and 
interceptor capability into the hands of the warfighters, they are 
faced with several more options to defend their areas of 
responsibility. We must continually refine our C2BMC capability to 
allow the warfighters to rapidly process all of the available options, 
plan for the employment of BMDS assets, and globally manage the 
execution of the system on tight timelines. The battlefield effect is 
that the integrated BMD system can defend against more missiles 
simultaneously, reduce risk of missiles leaking through our defenses, 
conserve more interceptor inventory, and defend a larger area.
    Finally, I am deeply concerned about future threat uncertainty and 
worldwide ballistic missile proliferation. I believe the performance of 
the BMD system could be greatly enhanced by an integrated, space-based 
layer. Space systems could provide on-demand, near global access to 
ballistic missile threats, minimizing the limitations imposed by 
geography, absence of strategic warning, and the politics of 
international basing rights. A space layer would apply pressure on 
launches from land or sea, depriving the adversary of free rides into 
midcourse with advanced countermeasures. While deployment of such a 
system must be preceded by significant, national-level debate, that 
debate must be informed by science. To that end, we are ready to begin 
a focused investigation of the feasibility of having an integrated 
space-based layer, and I am requesting $10 million for fiscal year 2008 
to begin concept analysis and preparation for small-scale experiments. 
These experiments will provide real data to answer a number of 
technical questions and help the leadership make a more informed 
decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of congressional and departmental reductions in the 
Missile Defense Agency budget. The following program activities have 
been delayed: delivery of the first operational STSS satellite has 
slipped from 2012 to the 2016-2017 timeframe, prolonging the time we 
will be without a capability to integrate the system globally; and the 
scope of the KEI activity has been reduced to focus on booster 
development and delay work on system integration, battle management, 
and fire control. The reductions also have impacted work in the area of 
innovative technology development. I regret that we have had to cancel 
the advanced technology development work associated with our micro-
satellite activities and eliminate funding for the High Altitude 
Airship beyond fiscal year 2007.
                      international participation
    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
I am pleased to report that many governments share our vision for 
missile defense. This past year we continued to build on a very 
successful program to involve more countries and forge international 
partnerships. Without the participation of our allies and friends, the 
ballistic missile defense system would look very different.
    The government of Japan remains solidly behind missile defense and 
has even accelerated its program to field multilayered missile defenses 
that are interoperable with the U.S. system. Japan continues to upgrade 
its Aegis destroyers and acquire Standard Missile-3 interceptors. In 
March 2006 we successfully flight-tested new nosecone technologies 
developed in cooperation with Japan. Additionally, the Missile Defense 
Agency and Japan have agreed to co-develop a Block IIA version of the 
Standard Missile-3, which will improve our defensive capabilities 
against longer-range missiles. Japan also is upgrading its Patriot fire 
units with Patriot Advanced Capability-3 missiles and improved ground 
support equipment. In 2008 Japan is expected to begin co-production of 
the PAC-3 missile.
    The upgraded Royal Air Force Fylingdales radar in the United 
Kingdom will undergo operational testing this year. Once we certify the 
radar, it will provide the system critical early warning, tracking and 
cuing data needed to defeat threat missiles coming out of Iran. We are 
working closely with Denmark to upgrade the Thule early warning radar 
in Greenland to improve its capability to detect and track ballistic 
missiles.
    Later this year we will conduct satellite-to-ground and satellite-
to-satellite communication experiments with a German-built Laser 
communications terminal installed in the NFIRE satellite. Together with 
an identical terminal on a German satellite, the United States and 
Germany will perform joint experiments to validate the use of laser 
technology for high speed space communications.
    The United States and The Netherlands have been working together to 
modify Dutch frigates with a combat system to enable ballistic missile 
detection and tracking. An upgraded air command and defense frigate 
from The Netherlands successfully detected and tracked the targets in 
the December 2006 Aegis ballistic missile defense flight test.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in Iran. We are also conducting a 
feasibility study on a joint development program called David's Sling 
for shorter-range missile defense.
    We continue to support our North Atlantic Treaty Organization 
(NATO) partners in advancing the dialogue on the political-military 
implications of defending European population centers against longer-
range missile threats. The Missile Defense Agency is supporting the 
NATO Active Layered Tactical Ballistic Missile Defense Program Office 
to develop a capability to protect deployed forces by 2010.
    I am also pleased to announce that this past February we put in 
place a Framework Memorandum of Agreement with Italy and we can now 
begin to develop opportunities for missile defense technology sharing, 
analysis, and other forms of collaboration. We have other international 
interoperability and technical cooperation projects underway, for 
example with Australia, and are working to establish formal agreements 
with other governments.
                                closing
    Mr. Chairman, in closing, some have said that the Defense 
Department's investments in missile defense are misdirected, that other 
threats are more pressing. Others have said we are spending too much 
money on missile defense and that it is too expensive. And still others 
have claimed that we should slow down fielding activities until the 
technologies are more mature.
    I disagree with these critics, Mr. Chairman. We must meet the 
rising threats posed by ballistic missiles. We have seen rogue nations 
test these weapons in the past year. Ballistic missile defense is 
expensive, but the dollar investment in this Nation's security pales in 
comparison to the overwhelming price this Nation would pay in lives, 
social dislocation, and economic devastation from a single missile 
impacting an American metropolitan area. Indeed, the success we have 
seen in our comprehensive test program indicates that there is no 
reason to slow down.
    In less than 3 short years, thanks to the dedication of thousands 
of men and women across this country and a first-class, cutting-edge 
defense industry, we have deployed missile defenses to protect our 
homeland, our troops deployed to dangerous regions around the world, 
and our allies and friends. But we have a long way to go. So now is not 
the time to cut back missile defense. Now is the time to accelerate it.
    Thank you and I look forward to your questions.

    Senator Inouye. Now may I recognize General Campbell.
STATEMENT OF LIEUTENANT GENERAL KEVIN T. CAMPBELL, 
            COMMANDING GENERAL, U.S. ARMY SPACE AND 
            MISSILE DEFENSE COMMAND/U.S. ARMY FORCES 
            STRATEGIC COMMAND AND JOINT FUNCTIONAL 
            COMPONENT COMMAND FOR INTEGRATED MISSILE 
            DEFENSE
    General Campbell. Chairman Inouye, Senator Stevens, members 
of the subcommittee, thank you for your support and invitation 
to appear. I want to briefly address my role as the Joint 
Functional Component Command (JFCC) for Integrated Missile 
Defense Command. I'll give you a quick assessment of the 
capabilities to meet the threat. I'll talk briefly about the 
role of the warfighter in the development process and our 
ability to shape what General Obering is producing and last, my 
role as the Army Senior Commander for Space and Missile 
Defense.
    Senator Inouye. General, could you pull that microphone 
toward you, please?

        ARMY SPACE AND MISSILE DEFENSE COMMAND COMMANDER'S ROLE

    General Campbell. Yes, sir. In my role as the Joint 
Component Commander for Integrated Missile Defense, we're 
responsible for planning, integrating, and coordinating missile 
defense across the combatant commanders. To translate this, 
this means that we develop concept plans and that we create 
exercises for exercising the system across all of the combatant 
commanders.
    Last year when the North Koreans conducted their ballistic 
missile test, I think this did a number of things for us in our 
ability to operate the system. We demonstrated that we could 
operate the system on a sustained basis and that we could, 
across several combatant commanders, dynamically plan, 
integrate, and coordinate the missile defense system.
    I really think the success that we enjoyed was a result of 
the Missile Defense Agency test program and our involvement in 
it and also the warfighter exercises that we've put together 
over the past few years that allowed us to exercise our 
concepts and our tactics techniques and procedures and it 
certainly improved our ability to operate the system.
    In terms of an assessment of the near-term missile defense 
forces, I think it is limited. However, the limitation is 
usually related to missile inventory. I think there is also a 
requirement for additional systems as well as sensors. And I 
think with the fielding of THAAD in the near future and the 
addition of aegis ballistic missile defense capability, we're 
going to overcome those limitations that we face today.
    In my view, the expansion of the system into Europe is an 
important step that expands not only defense of our friends, 
allies and our deployed forces but also thickens the defense 
over the United States. So in my view, this is an essential 
step in the development of the program.
    I really don't think we can do global missile defense 
without our allies. We're going to need their involvement every 
step of the way. Along the path into the future, I think it's 
important that we maintain a balanced program in our ability to 
address the ICBMs as well as the shorter-range ballistic 
missiles.
    In terms of our ability to shape the future system and what 
General Obering produces, we have a mature process that 
involves all of the combatant commanders and we present General 
Obering with a prioritized list each year of what we think 
should be introduced into the system in his block development 
program. This has been successful. I think there is great 
cooperation amongst the combatant commanders and General 
Obering and producing what the warfighter needs.
    As the Army's Senior Commander for Space and Missile 
Defense, our job is to ensure that the warfighters have the 
tactical systems to delete the short-range threats and deliver 
space capability to them. We're transforming those forces. 
We're integrating them into a net centric environment so that 
these forces are more tailorable and scaleable for combatant 
commanders to meet their needs. Systems such as Patriot, the 
elevated netted sensor, and the surface launched advanced air-
to-air missile in THAAD are the type of systems that we're 
networking together.
    With the help of this subcommittee, I think we're going to 
continue to make good progress into the future, especially 
progress in defending forward-based forces and allies. I 
appreciate the opportunity to speak to you on these important 
matters and look forward to your questions. Thank you.
    [The statement follows:]
       Prepared Statement of Lieutenant General Kevin T. Campbell
                              introduction
    Chairman Inouye, Ranking Member Stevens, and Members of the 
Committee, thank you for your ongoing support of our military and for 
the opportunity to appear before this panel. In my view, this Committee 
is a strong ally of the Army and the missile defense community, 
particularly in our continuing efforts to field missile defense forces 
for the Nation and our allies. I consider it a privilege to be counted 
in the ranks with my fellow witnesses as an advocate for a strong 
global missile defense capability.
    My current responsibility entails two roles. The first is as the 
Army's senior commander for space and missile defense. The second role 
is as a Soldier on the Joint Missile Defense Team and Commander of the 
Joint Functional Component Command for Integrated Missile Defense, a 
part of the U.S. Strategic Command. In this role, I serve as the Joint 
user representative working closely with the Missile Defense Agency 
(MDA), other services, and Combatant Commanders to ensure that our 
national goals of developing, testing, and deploying an integrated 
missile defense system are met in an operationally sound configuration.
    Chairman, as proven during last year's July 4th North Korean 
missile launches, Army Soldiers are trained and ready to operate the 
Ground-Based Midcourse Defense (GMD) Element of the Ballistic Missile 
Defense System (BMDS) at Fort Greely, Alaska, and the Joint National 
Integration Center at Schriever Air Force Base in Colorado. These 
Soldiers, as part of the Joint team, continue to serve as our Nation's 
first line of defense against a rogue nation's launch of an 
intercontinental ballistic missile toward our shores. I am proud to 
represent them along with the other members of the Army and Joint 
integrated missile defense community.
                united states strategic command jfcc-imd
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD) was established in January 2005 as one element of 
the U.S. Strategic Command (USSTRATCOM) and reached full operational 
capability early in 2006. The JFCC-IMD is manned by Army, Navy, Air 
Force, Marine Corps, and civilian personnel. This joint-manning 
arrangement and our strong partnership with our collocated MDA team 
enable us to execute the integrated missile defense mission by 
leveraging the existing robust infrastructure.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through stressing operational scenarios, integrated missile 
defense has experienced robust growth and maturity and has improved its 
ability to defend this nation. Although, there is much work yet to be 
done, JFCC-IMD continues to lead the Department's transformation toward 
more robust integrated missile defense capabilities. The Soldiers, 
sailors, airmen, Marines, and civilians of this Joint warfighting 
organization execute our mission to plan, integrate, and coordinate 
global missile defense operations and support by operationalizing new 
capabilities from MDA, developing global missile defense plans in 
collaboration with the Geographical Combatant Commanders, and 
conducting cross-geographical combatant commander exercises to 
eliminate seams and gaps to maintain a strong defense against changing 
threats. Execution of the essential mission includes providing warning 
of missile attack to other Combatant Commanders and providing 
assessment of missile attack. In all, JFCC-IMD continues to build 
operational competence of the integrated missile defense capability and 
warfighter confidence in executing our mission.
Ballistic Missile Defense System Progress
    This past year has been a year of operational achievement for 
integrated missile defense as we successfully placed the Ballistic 
Missile Defense System (BMDS) on alert in response to a credible 
ballistic missile threat from North Korea. This limited defense 
capability marked the beginning of global missile defense as 
warfighters from three combatant commands and allies integrated 
respective assets and personnel toward a single mission against a 
common threat. The scale of this integration is unprecedented--non-
missile defense assets were integrated with legacy and state-of-the-art 
technologies to provide a shield to protect our homeland. Additionally, 
we achieved unparalleled integration of the Department's intelligence 
capabilities to enable timely and responsive indications and warning to 
support missile defense readiness. We expect the warfighting capability 
provided by such integration of assets, platforms, doctrine, and 
personnel to continue to grow in coming years.
    The North Korean incident last summer also underscored the growing 
maturity of the cross-JFCC integration within USSTRATCOM in executing 
its global mission. JFCC-IMD collaborated closely with the JFCCs for 
Intelligence, Surveillance and Reconnaissance (JFCC-ISR) and Space 
(JFCC-Space) to integrate the intelligence, surveillance, 
reconnaissance, and space assets for the missile defense missions. This 
effort afforded the use of intelligence, surveillance, reconnaissance, 
and space assets that previously had not been included in the missile 
defense mission. Similarly, JFCC-IMD collaborated closely with JTF-
Global Network Operations to maximize availability of a robust 
communication network to link the decision-makers in Washington with 
commanders across the globe. We have also integrated our planning 
efforts with the JFCC for Global Strike and Integration (JFCC-GSI) to 
ensure we integrated both offensive and defensive capabilities into 
potential courses of action. Our approach today for a missile defense 
contingency is designed to examine and integrate a broader array of 
capabilities into our planning and execution. In short, JFCCs are 
maturing in a deliberate and coordinated pace to extend the New Triad 
in its global mission.
    JFCC-IMD's readiness demonstrated during last summer's incident is 
a testimony to the robust warfighter exercise and test program. During 
the past year, we planned and conducted three major combatant command-
level exercises involving U.S. Pacific Command, U.S. Northern Command 
and U.S. Strategic Command. These exercises enabled combatant 
commanders to exercise concepts of operations and tactics, techniques, 
and procedures, and improve our planning and execution of missile 
defense operations. These activities enhance warfighter competence in 
prosecuting a global missile defense capability. JFCC-IMD's global 
missile defense exercise program also extended to our coalition 
partners. These international exercises further bolstered our allies' 
resolve in conducting combined missile defense operations and extending 
partnership into co-development of future capabilities.
Warfighter Contributions to System Development
    Warfighters participate in key BMDS tests to build confidence in 
its capabilities. JFCC-IMD led warfighter participation in the first 
distributed ground tests on the operational BMDS, geographically 
distributed from Colorado to Alaska, and Washington to Japan. This test 
demonstrated the growing sophistication and complexity of BMDS 
assessments that are increasingly operationally relevant. Furthermore, 
warfighters collaborated with MDA to successfully conduct key flight 
tests to bolster our Nation's confidence in the effectiveness of the 
integrated missile defense capabilities.
    Within a 90-day period, we successfully intercepted ballistic 
missiles at low and high altitudes; in midcourse and terminal phases; 
and, in endo- and exo-atmospheric environments with the PATRIOT 
Advanced Capability-3 (PAC-3), the AEGIS Standard Missile-3, the 
Terminal High Altitude Area Defense (THAAD), and our long-range Ground-
Based Interceptor. Conducting these system-level flight and ground 
tests required the use of operational assets, the very assets that 
would be used to defend this nation against a possible North Korea 
missile attack. JFCC-IMD worked closely with the Combatant Commanders 
and MDA to coordinate the availability of these assets to ensure 
sustained operational readiness during the conduct of the system-level 
tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests, but this period of robust achievements 
underscored the warfighter's requirement to expedite development and 
deployment of a concurrent testing, training, and operations 
capability. Concurrent test, training and operations will permit 
developers and operators to maintain full operational mode of the BMDS 
while simultaneously developing, testing, or training on the system. 
The need for the concurrent test, training and operations capability is 
especially pronounced for the one-of-a-kind assets that are shared 
between the warfighter, developer, and trainer communities.
    Absent a mature concurrent test, training and operations 
capability, JFCC-IMD aggressively conducts an asset management process 
to ensure the highest level of operational readiness during conduct of 
materiel development and tests. Supported by an indications and warning 
system, the asset management process has been the key enabler to 
operationalize new capabilities, perform operationally relevant tests, 
and conduct system-wide upgrades. During the past year, the asset 
management process facilitated warfighters and materiel developers in 
optimizing the use of the deployed elements while fielding additional 
assets. In addition, warfighter participation in the flight and ground 
testing increased our confidence in the system's performance.
Increasing the Capability of the System
    JFCC-IMD, in partnership with MDA and the Services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have increased the robustness of our 
sensor capability by deploying a mobile sensor in Japan, increasing the 
number of AEGIS ships enabled with the long range search and tracking 
capability, and are deploying a midcourse discrimination sensor in the 
waters of Alaska. We have continued deployment of the Navy's Ballistic 
Missile Defense AEGIS Standard Missile-3, PATRIOT Advanced Capability-3 
missiles, and increased the number of Ground-Based Interceptors. 
Additionally, in my role as the JFCC-IMD Commander, I have been in 
discussion with European Command to build a stronger partnership with 
our Allies and to host a midcourse radar and interceptor site to 
counter the Iranian threat.
    The Command, Control, Battle Management, and Communications System 
is an essential evolutionary component of the BMDS that greatly 
enhances both planning and execution capabilities. The command and 
control system contributes to all phases of integrated missile defense 
from optimizing planning to synchronizing the automated execution of 
the BMDS. During the past year, upgrades to the command and control 
system have extended situational awareness, planning, and sensor 
management capability to key components of US Strategic Command, U.S. 
Northern Command, and U.S. Pacific Command. Additionally, critical 
command and control system situational awareness nodes are utilized by 
the White House, National Military Command Center, and Secretary of 
Defense Executive Support Center.
    As we move forward in the next year, much work remains to be done. 
We will continue to integrate and conduct cross-geographic combatant 
commander planning and exercises, deploy new capabilities, and increase 
allies' involvement in global missile defense. We will continue to 
advocate for system improvements that close capability gaps and improve 
system performance. Fielding more capable command and control systems, 
sensors, and kill vehicles, such as the Multiple Kill Vehicle, will 
provide the warfighter with a system capable of addressing a broad 
range of threats. Our continuing goal is to develop a seamless missile 
defense system, that integrates all available capabilities, to deter 
and dissuade the proliferation of missile threats, and if necessary, 
defeat them to protect our Nation, deployed forces, friends, and 
allies.
   air and missile defense--an overview of the fiscal year 2008 army 
                           budget submission
    In addition to deploying the BMDS, MDA, the Services, and the 
Combatant Commanders continue to focus on improving theater air and 
missile defense capabilities. Both the Ground-Based Midcourse Defense 
and Theater Air and Missile Defense Systems are vital for the 
protection of our homeland, deployed forces, friends, and allies. Air 
and missile defense is a key component in support of the Army's core 
competency of providing relevant and ready land power to Combatant 
Commanders.
    As you are aware, real world events over the past year have 
increased the relevance, urgency, and importance of theater air and 
missile defense as well as cruise missile defense. Medium and short-
range ballistic missile and cruise missile threats continue to grow, 
especially in light of increased proliferation of missile defense 
technology. These threats, combined with Iran's and North Korea's 
increased interest in nuclear capabilities, are of particular concern.
    As highlighted in the 2006 Quadrennial Defense Review, a number of 
potentially hostile states possess or seek weapons of mass destruction. 
This is especially troubling when considered along with ballistic and 
cruise missile proliferation. For these states, weapons of mass 
destruction--particularly nuclear weapons--provide the means to assert 
regional domination and intimidate others. As such, the Quadrennial 
Defense Review specifically highlighted the need for integrated 
defenses against short-, intermediate-, and intercontinental-range 
ballistic and cruise missile systems.
    The House Armed Services Committee Defense Review Report, released 
in December of 2006, concluded that the U.S. force structure must 
expand and U.S. capabilities must improve to reduce the risk to the 
security of the American people to an acceptable level and noted that a 
robust BMDS is critical to defeat strategic threats to the United 
States and its allies. The report also noted that Operation Enduring 
Freedom and Operation Iraqi Freedom are consuming key missile defense 
capabilities, leaving other worldwide commitments under-resourced.
    In light of these reports and their findings, the Army, in concert 
with the Department of Defense and MDA, is taking the necessary steps 
to ensure that the U.S. homeland, allies and deployed forces are 
provided the necessary protection from these threats. With that as a 
background, I would now like to focus on the Army's fiscal year 2008 
budget submission for air and missile defense systems. The President's 
Budget, presented to Congress on February 5th, includes approximately 
$1.75 billion with which the Army proposes to execute current Army air 
and missile defense responsibilities and focus on future development 
and enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
    The Army, as part of the Joint team, continues its transformation 
of air and missile defense forces to meet the increasingly 
sophisticated and asymmetric threat environment encountered by the 
Joint and Allied warfighter. The air and missile defense force will 
meet this threat by adhering to the following imperatives: One seamless 
integrated force; advanced engagement concepts; defense in depth; 360-
degree defense; early and continuous engagements; assure friendly use 
of airspace; and support information dominance.
Integrated Air and Missile Defense
    In order to fulfill these imperatives, the Army is transforming its 
air defense force from its current separate systems architecture to a 
component-based, network-centric, Integrated Air and Missile Defense 
system of systems. The Integrated Air and Missile Defense Program 
focuses on systems integration, common battle command and control, 
joint enabling networking, and logistics and training to ensure 
operational requirements, such as force lethality, survivability, 
transportability and maneuverability, are achieved. Benefits of 
developing and fielding such a capability include: Expanded defended 
areas against the full-spectrum of threats; integrated defense design 
which eliminates single nodes of failure; flexibility in choice of 
interceptors; ability to battle manage weapons, sensors, and 
inventories; seamless training adjustments for battle managers across 
the Integrated Air and Missile Defense Force; and closing current 
capability gaps.
    The Integrated Air and Missile Defense Program employs an 
evolutionary acquisition strategy that leads to the objective net-
centric system of systems plug-and-fight capability. The approach calls 
for a restructuring of current Army air and missile defense systems 
into components of sensors, weapons, and battle management command, 
control, communications, computers, and intelligence with a standard 
set of interfaces among the components using a standardized 
communications network. This modularization of missile defense 
capabilities will allow Joint Forces Commanders to scale and tailor 
assets and forces based upon the specific operating environment in 
which they are employed.
    Technology insertions to the Integrated Air and Missile Defense 
will continue throughout each increment as high-payoff technologies 
mature and are ready for integration. Incremental development of the 
program allows the Army to more quickly field new and improved 
capabilities to the warfighter. The proposed fiscal year 2008 
President's Budget supports the evolution of an Integrated Air and 
Missile Defense capability.
Air and Missile Defense Organizational Structure
    As part of air defense transformation, the Army has created 
composite air and missile defense battalions. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines: short-range air defense and high-to-medium altitude air 
defense. Additionally, the Army no longer provides an organic air 
defense artillery battalion to its Divisions. Instead, divisional air 
defense artillery battalions are pooled at the theater-level to provide 
air and missile defense protection based on situation and mission 
requirement. The pool of Army air and missile defense resources will 
address operational requirements in a tailored and timely manner. This 
pooling concept supports the Army's effort to move to modular designs 
that allow force tailoring of units better sized to meet the Combatant 
Commanders' needs and homeland security and defense requirements.
    Within the context just provided, allow me to briefly discuss the 
three main component areas of the Army's air and missile defense 
construct: Terminal Phase Ballistic Missile Defense, Cruise Missile 
Defense, and Force Protection.
               terminal phase ballistic missile defenses
    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Terminal High Attitude Area 
Defense System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PAC 3 Overview
    Chairman, since the combat debut of the PATRIOT Air and Missile 
Defense System during Operation Desert Storm, the Army has continued to 
implement a series of improvements to address the lessons learned. 
During Operation Iraqi Freedom, we saw the debut of the improved 
PATRIOT Configuration-3 system, including the effective use of the 
Guidance Enhanced Missile and the PATRIOT Advanced Capability 3 (PAC-3) 
Missile. PAC-3 is the latest evolution of the phased materiel 
improvement program to PATRIOT. Combining developmental testing and 
operational data, this program enables the development and deployment 
of a new high-velocity, hit-to-kill, surface-to-air missile with the 
range, accuracy, and lethality necessary to effectively intercept and 
destroy more sophisticated ballistic missile threats. Today's PATRIOT 
force is a mixture of PAC-2 and PAC-3 configured units. To maximize the 
full advantage of the PAC-3 capabilities, the Chief of Staff of the 
Army has directed the Army to pure-fleet the entire PATRIOT force to 
the PAC-3 configuration. In response to Combatant Commanders' 
requirements, the Vice Chief of Staff of the Army directed the creation 
of two additional Patriot battalions to help relieve the stress on the 
PATRIOT force and increase the Army's strategic responsiveness in the 
area of terminal ballistic missile defense. These directives underscore 
the importance of PATRIOT to the nation's overall National Military 
Strategy and are necessary to maximize the capabilities for protecting 
the security interests of both the United States and our allies.
    While PATRIOT saved many lives defending against Iraqi ballistic 
missile attacks during Operation Iraqi Freedom, there were some 
operational deficiencies. The Army has undertaken steps to correct them 
and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific Operation Iraqi Freedom fixes and continued aggressive 
participation in Joint interoperability improvements in situational 
awareness. The development, testing and materiel release for the nine 
enhancements is on schedule to be completed by the end of this fiscal 
year. Several enhancements have already completed fielding. The 
remaining enhancements are either currently being fielded or are 
planned to start this spring. Based on the current fielding schedule, 
all remaining Operation Iraqi Freedom fixes will complete fielding to 
the units by fiscal year 2009.
    The PATRIOT system remains the Army's mainstay Terminal Air and 
Missile Defense System and our Nation's only deployed land-based short-
to-medium range BMDS capability. The current PATRIOT force must be 
sustained and recapitalized until MEADS is completely fielded. Fielding 
of MEADS is scheduled to begin in 2015 and be completed by 2028.
Combined PATRIOT/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path that merged the PATRIOT and MEADS programs, 
establishing the PATRIOT/MEADS Combined Aggregate Program with the 
objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into PATRIOT. PATRIOT/MEADS Combined 
Aggregate Program is an important capability that will operate within 
the BMDS. It is, in fact, a top Army priority system for defense 
against short- and medium-range tactical ballistic missiles and air 
breathing threats. The PATRIOT/MEADS Combined Aggregate Program will be 
an integral part of the Integrated Air and Missile Defense System of 
Systems and capable of operating within a Joint, interagency, 
intergovernmental, and multinational interdependent operational 
environment. It will provide wide-area protection at strategic, 
operational, and tactical levels.
    The PATRIOT/MEADS Combined Aggregate Program will also provide 
battle management command and control in accordance with the IAMD 
provided common battle command system, introduce lightweight deployable 
launchers, upgrade the PAC-3 missile, and eventually provide the full 
MEADS capability to the entire force. By establishing the PATRIOT/MEADS 
Combined Aggregate Program, the Joint integrated air and missile 
defense architecture will become more robust in key ways. First, MEADS 
enhancements are integrated into the existing system. Second, as 
lessons are learned from the present missile defense capability, they 
will be incorporated into the MEADS follow-on system.
    MEADS is a cooperative development program with Germany and Italy 
to field an enhanced ground-mobile air and missile defense capability. 
The MEADS program, which supports the President's goal for 
international cooperation in missile defense, will enable the joint 
integrated air and missile defense community to operate more 
effectively on future battlefields. MEADS will provide theater level 
defense of critical assets and continuous protection of a rapidly 
advancing maneuver force as part of the Joint integrated air and 
missile defense architecture. Major MEADS enhancements include 360-
degree sensor coverage and a strategically deployable and tactically 
mobile air and missile defense system that can be deployed and 
controlled as part of the integrated air and missile defense 
architecture. The PAC-3 Missile Segment Enhancement is currently under 
development and will be integrated into the MEADS program. The Missile 
Segment Enhancement Missile will provide a more agile and lethal 
interceptor that increases the engagement envelope. We are confident 
that this path will provide our service members, allies, friends, and 
our Nation with the most capable air and missile defense system 
possible.
Terminal High Attitude Area Defense System Overview (THAAD)
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide critical defense against short 
and medium range ballistic missiles. As a result, MDA is funding and 
manufacturing four THAAD fire units for the Army in an accelerated 
fielding that will begin in 2009. This investment represents an initial 
THAAD capability for the warfighter and the next major step towards a 
comprehensive, layered theater ballistic missile defense. Follow-on 
THAAD upgrades are planned in future budgets to meet an ever increasing 
and evolving threat.
                         cruise missile defense
    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a weapon of mass destruction warhead, the effects from 
a cruise missile could be catastrophic. The Army's Cruise Missile 
Defense Program is an integral piece of the Joint cruise missile 
defense architecture. Critical Army components of the Joint cruise 
missile defense architecture are provided by the Joint Land Attack 
Cruise Missile Defense Elevated Netted Sensor System (JLENS), the 
Surface-Launched Advanced Medium Range Air-to-Air Missile (SLAMRAAM), 
the Patriot Missile Segment Enhancement Missile, and an integrated fire 
control capability inherent in the Integrated Air and Missile Defense 
System of Systems. We are also working closely with the Joint community 
to assure development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat.
    The Joint Land Attack Cruise Missile Defense Elevated Netted Sensor 
System brings a critically needed capability to detect, track, and 
identify cruise missile threats. The system will support engagements 
using the Surface-Launched Advanced Medium Range Air-to-Air Missile, 
the Navy Standard Missile, and the PATRIOT/MEADS weapon systems by 
providing precision tracking and 360-degree wide-area and over-the-
horizon surveillance of land-attack cruise missiles. The Surface-
Launched Advanced Medium Range Air-to-Air Missile will provide maneuver 
forces with a critical, beyond line-of-sight engagement capability to 
counter the cruise missile threat, as well as unmanned aerial vehicle 
threats, over an extended battlespace. The Surface-Launched Advanced 
Medium Range Air-to-Air Missile uses the existing Joint Advanced Medium 
Range Air-to-Air Missile currently used by the Air Force and the Navy, 
thereby capitalizing on Joint commonality on the battlefield.
                            force protection
    A significant danger in Operation Iraqi Freedom and Operation 
Enduring Freedom is posed by insurgents employing indirect-fire tactics 
of quick-attack, low-trajectory, urban-terrain-masked rocket, 
artillery, and mortar strikes against U.S. forward operating bases in 
Iraq. To combat this threat, the Army developed Counter-Rocket, 
Artillery, Mortar (CRAM), an integrated solution of capabilities to 
provide warning and intercept of rocket, artillery, and mortar threats. 
CRAM provides a holistic approach to this emerging menace. Horizontal 
integration across the core functions--command and control, shape, 
sense, warn, intercept, respond and protect--is providing an integrated 
modular and scalable capability. This capability provides timely 
warning of mortar attacks, intercept and defeat of incoming rounds, and 
accurate location of insurgent mortar crews, enabling a rapid, lethal 
response. CRAM takes advantage of existing systems and capabilities, 
combining them in a system of systems architecture to support the 
warfighter on today's battlefield. The current CRAM solution is truly 
Joint, in that it uses fielded systems from the Army, Navy and Air 
Force along with a commercial-off-the-shelf system. To date, CRAM has 
been supported solely through supplemental appropriations. Recognizing 
the enduring nature of the rocket, artillery, and mortar threat, the 
Army is exploring ways, to include the use of directed energy, to 
enhance this capability across all of the core functions, thereby 
making it even more relevant to the future modular force.
                               conclusion
    Chairman, the Army, a fully contributing member of the Joint team, 
is relevant and ready, fighting the war on terrorism, and deterring 
aggression throughout the world, while transforming to meet future 
threats. With its responsibilities for Ground-Based Midcourse Defense, 
THAAD, and PAC-3/MEADS Combined Aggregate Program, the Army is an 
integral part of the Joint team to develop and field an integrated 
missile defense for our Nation, deployed forces, friends, and allies. 
In my role as the Joint Functional Component Commander for Integrated 
Missile Defense, I will continue the development of a Joint BMDS 
capability to protect our Nation, deployed forces, friends, and allies. 
The Army has stepped up to the land-attack cruise missile defense 
challenge by aggressively developing the Joint, integrated, and 
networked sensor-to-shooter architecture necessary to defeat the 
emerging threat. The fiscal year 2008 budget proposal continues the 
transformation of the Army's air, space, and missile defense force to 
support the Army's future force, the Joint Integrated Air and Missile 
Defense System, and our global BMDS. Transformation will continue to 
define the characteristics of the emerging air, space, and missile 
defense force and determine how it can best support the future force 
operating in a Joint, interagency, intergovernmental, and multinational 
environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

    Senator Inouye. Well, thank you very much. Senator Stevens.

                STATUS OF GROUND-BASED MIDCOURSE DEFENSE

    Senator Stevens. Thank you very much. You know, I really 
think we should add to our congratulations to both of you. 
Because this system is going forward so successfully, I think 
the problem is how to handle success. But we have a test of the 
ground-based midcourse defense (GMD) program. As I understand 
it, you have one scheduled in May and September. Any obstacles 
to those tests?
    General Obering. No, sir. We emplaced the interceptor in 
the silo this last week for that test and usually once we get 
to that point, we go very quickly in terms of through the 
preparations. We delayed the test--originally, it was to be 
flown in December and we had to delay it to May because we 
discovered in the flight test that we flew last September that 
we had an issue with part of the telemetry system. That is, 
part of the test unique hardware on the missile that had to be 
replaced because there was a chance that we would lose all of 
our data in flight and we did not want to do that. So this was 
a configuration that has to do with the test not with any of 
the operational interceptors and so that was what delayed it to 
May, to have to replace that piece of hardware and then do all 
the testing associated with it. But we're on track and we 
should be flying in May and then the next test, as you said, 
sir--by the way, we're going to bring in the sea-based X-band 
radar (SBX), that very large radar. That will be integrated 
into the test in September. It's going to be in a shadow mode 
for this one in May and be fully integrated in the one in 
September.
    We have now delivered our second forward deployed radar 
like the one that we have in Japan and we are proposing to take 
that radar and move it to Alaska. It is currently in California 
in testing. We'd like to move it to Alaska so it can be as 
realistically positioned as soon as possible and use it also in 
that flight test. That's what we're planning right now.
    Senator Stevens. I had several questions about the reports 
of water in the facilities at Fort Greeley. Now, I can tell 
you, there has been a heavy snow here and because of piling up 
the snow from cleaning the driveway, we had about 14 feet of 
snow around our place up there. But was that a result of snow 
or what caused that flooding in the Fort Greeley area?
    General Obering. Sir, we had flooding last summer that 
occurred. That's when we were going on alert for the North 
Korean missiles. We had part of Missile Field No. 3 that had 
been completed and we had several silos, about seven, that had 
not been completed. They were in a transient condition at that 
point. We had, as you may remember, torrential rains that came 
through. In fact, it was an all-time record for the amount of 
rainfall that occurred there and because of the state of 
construction at that time, we had water that got into the 
silos. There was nothing that the contractor or that the 
warfighters could have done about it at that point.
    Senator Stevens. They were empty silos, weren't they?
    General Obering. Yes, sir. They were empty silos. They were 
not part of the operational capability and we--in order to make 
sure that we save money on the construction of the silos, we 
ship basically prefabricated components into the missile field 
and it was those components that ended up getting flooded. So 
we have now begun the repairs. We will have the first one of 
those silos back on line in April, the second one in August, 
and then we'll have three more this year for a total of five 
completed and then--I'm sorry, four total this year and three 
more next year to have them repaired.

                       EUROPEAN SITE NEGOTIATIONS

    Senator Stevens. Shifting to the Poland situation--thank 
you for mentioning that. As I understand, you're going to have 
some exchange of diplomatic notes with Poland and the Czech 
Government but you've had some criticism about this, too. Can 
you tell us, what's the status of that now?
    General Obering. Yes, sir. In fact, I just returned from 
Warsaw last week and from Prague. I was there Monday. We have 
had an exchange of diplomatic notes. We believe that the formal 
negotiations with both countries should begin in about the mid-
May timeframe. We believe that we're getting strong support 
from within the governments there in Poland and the Czech 
Republic. During the visits that I've had there, what we have 
discovered is a lot of the popular objections that are 
occurring are because the people don't realize--don't have good 
information in terms of the extent, the details and that type 
of thing and so we are working with those governments to put 
together the materials that would be required to educate and to 
better inform the people in both those countries.
    But I did address the parliament in both countries. We met 
with both the majority as well as opposition party members, we 
met with all of them. In the case of the Czech Republic, they 
actually sent a parliamentary delegation to Kwajalein to look 
at the radar and to see how it operates and to see what effects 
it has and they were very, very pleased when they left there. 
In fact, we had been telling them what to expect and the 
headline in one of the popular Czech papers was that the 
Americans are telling the truth. That came from that visit. And 
that included one of the opposition party members.
    So I think we're making great, steady progress. I also 
briefed the NATO Council, as I said in my statement, and the 
NATO Russia Council on Thursday and Friday. As the Secretary 
General stated, we are now getting unanimity in the NATO 
Council on the perceptions of the threat and that we have to 
move ahead. I believe that we're also finding a great way to 
move ahead in terms of integrating this system within a NATO 
framework and we've educated them on how that could be done. We 
ran simulations. And to give you an idea of the popularity of 
this and the interest, we actually took a technical team over 
and we had set up simulations of missile attacks into Europe, 
into the United States and how the system--what would happen if 
we did not have a European component, what would happen if we 
did have a European component of the long-range protection, and 
what would happen if we have the European component tied to a 
NATO deployable capability. We had almost 200 people come 
through those exhibits in 2 days and so there was an incredible 
amount of interest. Every country, just about, in the Alliance 
was represented there.

                             AIRBORNE LASER

    Senator Stevens. That's good. One last question, Mr. 
Chairman and then I'll move on. I know there are others. The 
airborne laser (ABL) program seems to be making great strides. 
It's been some time since we went out there. How much can you 
tell about this in an open session?
    General Obering. Quite a bit, sir, if you like. The 
aircraft actually, when it's complete, will have three lasers 
onboard the aircraft. It will have a tracking laser that it 
uses for very precise tracking. It has an atmospheric 
compensation laser that goes out along that track and measures 
the distortion in the atmosphere and feeds that into a fire 
control system that then uses that information to deform 
mirrors onboard so that the high-energy laser, the laser that 
actually destroys the boosting missile, when it goes out, it 
goes out in a deformed state and then uses the atmosphere to 
focus the energy. We now have two of those three lasers onboard 
the aircraft--the tracking laser and the atmospheric 
compensation laser. We have actually lased with the tracking 
laser and we've been successful in that. Now we're coming up on 
the atmospheric compensation laser to be able to fire and to 
use that as well. So we're going to achieve some very 
successful knowledge points in that regard in the next several 
weeks. In addition, we have fired the very high-energy laser 
over 70 times in a 747 mockup. It was successful in the testing 
so now we have dismantled that laser and we're going to 
reinstall it or install it on a flying 747 this next year. So 
it is making great progress. It is incredible. It is just 
remarkable to see what American technology and ingenuity can 
do. It would make you very proud, as you know, when you visit 
that. But they are making great strides. It is tough. It's 
tough technical work but they are making great strides.
    Senator Stevens. I look forward to seeing it. Thank you 
very much, Mr. Chairman.
    Senator Inouye. Thank you. Senator Shelby.

                      BASE REALIGNMENT AND CLOSURE

    Senator Shelby. Thank you, Mr. Chairman. General Campbell, 
with the 2005 base realignment and closure (BRAC) announcement, 
much of the missile defense research and development is in the 
process of being consolidated. What are the resulting benefits 
to the missile defense program that will be realized as a 
result of this consolidation? You'll be right in the midst of 
it.

BENEFITS OF CONSOLIDATING ARMY BALLISTIC MISSILE DEFENSE ACTIVITIES AS 
                A RESULT OF BASE REALIGNMENT AND CLOSURE

    General Campbell. Yes, sir. I think what that's going to do 
for us is bring the developers--General Obering's folks 
together with those that are working some of the basic 
technologies. And there is a synergy there of being able to 
gather together and really get a better understanding between 
the communities and where we need to go in the future. So from 
my perspective, it offers the opportunity for the Missile 
Defense Agency and Space and Missile Defense Command to have a 
joint venture as we move forward in developing a missile 
defense system.

RELATIONSHIP BETWEEN NEAR-TERM AND LONG-TERM BALLISTIC MISSILE DEFENSE 
                                EFFORTS

    Senator Shelby. General, would you discuss briefly the 
priorities of the near-term missile defense capabilities such 
as Patriot, THAAD, and the GMD system as they relate to the 
need to pursue more advanced systems such as kinetic energy 
interceptor (KEI) and the multiple kill vehicle (MKV).
    General Campbell. In my view----
    Senator Shelby. Can you do that here?
    General Campbell. Yes, sir. I think generally in my view, 
we should continue to mature the GMD system. We should move 
ahead with the plans we have for Patriot, which include 
advancing Patriot from its configuration today to the Patriot 
advanced capability 3 (PAC-3). I think it's vitally important 
that we continue with fielding the THAAD system to meet threats 
that we anticipate will be evolving over the next 7 or 8 years. 
In terms of other capabilities that General Obering is working 
on, the KEI and ABL, I think it's important that we continue to 
invest in those programs and he'll reach a decision point in 
about the 2009 timeframe to decide which way to go but I think 
it's a hedge against future threats.
    Senator Shelby. As far as the PAC-3 Pure Fleet, if fully 
funded, what increase in capabilities would this initiative 
bring to the Army and how might this benefit the combatant 
commanders?
    General Campbell. Today we have a shortage of Patriot 
capability around the world to meet combatant commanders' 
requirements so it's essential, in my view, that we go ahead 
and pure fleet the system. In fact, the Army has committed to 
developing and standing up an additional 2 battalions and once 
we've achieved that, we'll have 15 battalions and that will 
basically meet combatant commanders' needs and this gives us 
extended range, greater lethality against the type of threats 
we expect to see in the future.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Thank you. Senator Feinstein.

                                TESTING

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
wanted to ask questions, if I might, about the test coming up 
in May or September because the prior tests haven't been very 
successful in many ways. The question is, how realistic these 
tests really are going to be, whether you're going to employ 
countermeasures, whether they are really geared to intercept a 
real scenario or whether they are highly structured just to hit 
the mark. So I'd like to ask both of you if you could tell us a 
little bit more about what these tests are going to be and what 
they're not going to be.
    General Obering. Thank you very much, Senator. Yes, ma'am. 
First of all--I'll focus just on the long-range system. We were 
very successful in 2000 and 2001 where we flew the long-range 
interceptor, a prototype of the kill vehicle and we had a 
target launch vehicle, we called it, for the booster, to keep 
it within the range of safety constraints that we were 
exercising at the time. We were so successful that my 
predecessor stopped that program and had us go ahead and 
transition to the operational configuration for the booster and 
we went into produce-ability for the kill vehicle.
    When we came back into flight test in late 2004 and early 
2005 is when we had the two failures of the interceptor to 
leave the silo and those were--in one case, it was a 
configuration issue associated with the test, not with an 
operational configuration, and in the other, it was a minor 
software timing issue that actually happens on rare occurrence. 
It just so happened to occur during that countdown. It was only 
one line of code that changed for the missile. Since then, we 
have flown successfully twice and one of those was an attempted 
intercept, which did occur last September.
    Now, there is a misconception and if you bear with me, that 
test was a threat representative target. It flew what we would 
expect a missile launch from North Korea in the United States 
designed to basically emulate a threat missile coming from 
North Korea and an interceptor coming out of Alaska. So that 
geometry we can match by launching a target out of Alaska and 
an inceptor out of California. In this test, we did have a 
threat representative target. We had an operational radar at 
Beale in California and we had soldiers manning the consoles. 
They were not aware, by the way, of the time of the target 
launch. All they knew is that there was a period of interest, 
as we call it that was opening up, which is not unusual.
    They roughly knew not the trajectory but the azimuth in 
terms of the direction. But that is also something you would 
expect in a realistic scenario because if they are launching 
from North Korea, we generally know the fan spread that would 
be coming toward the United States. So that all is realistic as 
well.
    We actually used the operational fire control system, the 
hardware and the software. We used an operational interceptor 
and the operational kill vehicle. Now, the fact that we did not 
have countermeasures on that--we did fly countermeasures in 
2000 and 2001. The reason we did not have it on the left 
several tests was because coming out of those interceptor 
failures, we wanted to make sure that we were taking this a 
step at a time based on the independent review team's 
recommendations that I chartered back during those initial 
failures in 2004 and 2005.
    By the way, just because you do not have countermeasures 
does not mean that it's not realistic. It's not something you 
would assume could happen all of the time with respect to 
missiles.
    In addition, I think a program that is widely recognized to 
be very operational and realistic is our aegis program and that 
is a midcourse interceptor as well and we haven't flown against 
countermeasures in that program either. But that's not because 
of the capabilities, it's because of how we are approaching our 
testing as we go through. So to say that just because you don't 
have countermeasures is unrealistic. I don't agree with, 
Senator.

                           POTENTIAL THREATS

    Senator Feinstein. Okay. Other than Russia and China, which 
countries do you view as a realistic threat at this time, with 
the will, the financial background, et cetera, the ability?
    General Campbell. Well, first of all, the system that we're 
developing is strictly intended to counter two countries of 
particular note--North Korea and Iran. We have watched----

          BALLISTIC MISSILE THREATS AGAINST THE UNITED STATES

    Senator Feinstein. You view Iran as a realistic threat 
against the United States. A ballistic missile threat against 
the United States?
    General Campbell. Yes, and I'll explain that statement.
    Senator Feinstein. Okay.
    General Campbell. If you look at what happened in the 1990s 
in North Korea, we saw them acquire Scud technology, which is a 
shorter range missile technology and they began to grow that. 
They grew into a NODONG, which is a medium-range missile and 
then they began to improve that and to develop longer-range 
weapons and they flew two of those. They flew one in 1998, 
which was a TAEPODONG 1 and they flew a TAEPODONG 2 last summer 
that failed shortly after liftoff and we know that they are 
continuing that move.
    Now, we're seeing the very same evolution in Iran. We're 
seeing them take shorter-range missiles and grow them to longer 
and longer range weapons. They are already testing weapons that 
are of much greater range than they would need in a regional 
fight, for example. So why are they are doing that? We have to 
be concerned about that, especially considering the statements 
that they've made about the aggressiveness toward the United 
States and Israel.
    Senator Feinstein. Let me just stop you there. You view the 
TAEPODONG 2--not the 3 but the 2--as a realistic threat to the 
United States?
    General Obering. I believe the TAEPODONG could be a very 
realistic threat to the United States. It would be--most of the 
experts agree that it would be capable of reaching the United 
States.
    Senator Feinstein. In part.
    General Obering. We don't know precisely and we don't know 
that much--all we know is based on what we have observed and 
what we believe. We believe it would be capable of reaching the 
United States.
    Senator Feinstein. Okay. Would you relate that now to the 
Iranian missiles, please?
    General Obering. Well, first of all, in 1998, the 
intelligence experts said that the North Koreans would not be 
capable of flying a long-range weapon for 5 or 8 years. That's 
what their predictions were. They flew one the next month. It 
surprised everybody. Right now, the experts are saying that 
Iran will not have an ICBM until 2010 to 2015 timeframe. But 
it's going to take us at least that long, until 2011 or 2012, 
to get a first capability in the ground to be able to protect 
our European allies from that potential and that growing 
threat. But we're seeing again the same evolution.
    Iran also stated, as the North Koreans did, that they want 
to develop a space launch capability. And if they do that--we 
believe that could occur imminently. If they do that, they will 
have demonstrated all of the building blocks for an ICBM 
capability. So what we're trying to do is stay ahead of what we 
believe to be an emerging threat because we can't wait until 
they actually demonstrate and then say, now let's go find a way 
to counter it because we'll be 3 or 4 years behind the power 
curve at that point.
    Senator Feinstein. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Inouye. Thank you very much. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for 
convening this important hearing. We appreciate the cooperation 
of our witnesses today and the hard work being done to help 
ensure we are protecting the security of our country against a 
missile attack. We have deployed forces around the world, too, 
who benefit from our capability to protect our troops against 
harm from missile attacks.
    There has been some who have said that our Defense 
Department has exaggerated the threat that we face from missile 
attack. Could you put that in a context of the realities? I 
know this is not a closed hearing and we can't go into 
classified material, but to the extent that you can, is there a 
way to explain this so we can explain to our constituents why 
it is necessary to spend so much money to develop a ballistic 
missile defense capability and deploy these defenses now?
    General Obering. Well, sir, I'll try a first crack at that 
and then, Kevin, if you'd like to add on.
    First of all, ballistic missiles are very attractive to 
countries like North Korea and Iran. We also saw them used in 
the first gulf war and against our forces in Operation Iraqi 
Freedom, in which the Iraqis fired ballistic missiles at the 
Coalition Forces and by the way, they were completely defended 
by the Patriot system that we had deployed. The reason that 
they are so valuable is they see a way of basically leap-
frogging and countering what they see to be overwhelming 
conventional capability on the part of the United States and 
our allies. So when you combine a ballistic missile with a 
weapon of mass destruction, either nuclear, biological, or 
chemical, it gives them that leverage.
    What they would like to be able to do is to use that to 
coerce us or our allies or to drive wedges between us. Because 
if you don't have a defense against a missile like that, then 
there is that possibility for that. We saw the hostage taking 
that took place with our British allies by the Iranians, for 
example. You can imagine how that scenario may play out if they 
were equipped with a long-range missile that was capable of 
reaching capitals of Europe with a nuclear warhead. We know 
that there has been this growth in North Korea with respect to 
nuclear capability and they, in fact, tested a device, we 
believe last fall. We know that there is collaboration between 
the North Koreans and the Iranians. So we have to, as I said 
earlier, we have to be very attentive to that.
    If we can--and I sincerely believe this--if we can join 
together with our NATO partners and deploy effective missile 
defenses on a widespread basis, I think it begins to devalue 
these weapons tremendously because now they realize that they 
can be destroyed. They can be effectively countered so they 
lose that attraction that we've seen. And I think this fits 
very nicely into a spectrum of deterrents on one hand, where 
you can deter countries that are deterrable. Arms control 
measures, both positive and negative sanctions for those 
countries that can be affected like that, such as Libya, but we 
have to face the fact that in the 21st century, we may run into 
the equivalent of a nation state, suicide bomber or the lack of 
control of these weapons as they develop them within a country 
to where we have to be prepared to be able to actually knock 
down a missile in flight.
    So I believe it is something that we need to do, not just 
to counter them in an operational sense but also to prevent 
them from being used here politically to be able to intimidate 
our allies and our friends.
    Senator Cochran. General Campbell.

          TERRORIST MISSILE THREATS AGAINST THE UNITED STATES

    General Campbell. Yes, sir. If you look at inventories of 
missiles within those particular countries of Iran and North 
Korea, if you look at the testing trends inside those 
countries, it's not a marathon, it's a sprint to get to what 
their objective is. And if you begin to look inside war 
fighting doctrine for North Korea--I mean, it's one of their 
principle elements that they are going to use in wartime, with 
their short-range and medium-range ballistic missiles. So in my 
view, our adversaries are in a sprint to develop their 
capabilities.

                            TERMINAL DEFENSE

    Senator Cochran. The emerging new capabilities that we 
have, the THAAD system, for example, is capable of being 
deployed several different places and Europe is one of those 
areas where we are exploring possibilities for deployment. What 
is the status of the actual execution of the plan for 
deployment of that system?

           TERMINAL HIGH ALTITUDE AREA DEFENSE PROGRAM STATUS

    General Campbell. Well, sir, we've got the first two fire 
units under contract and they will be delivered in the next 2 
years, 2008 and 2009, those two fire units. We have two more 
that we've added to the program as a result of the 
recommendations from Strategic Command as well. By the year 
2013, we should have four fire units that would consist of 
almost 100 missiles available with respect to THAAD. It is a 
key element of an overall layered defense because it operates 
both inside as well as outside of the atmosphere in that 
region, which is attractive from a defender's perspective. It 
is very useful with respect to deployed forces and as you said, 
in terms of that defense in the terminal phase.
    It has been proceeding very nicely with its test program. 
We have now had three of three successful intercepts with that 
missile this past year and this year. We had a successful test 
just 2 weeks ago and we have two more tests this year. One is a 
fly-out basically in the atmosphere, a very, very high speed to 
determine the ranges of the test envelope and then another 
intercept of a separating warhead this year as well. So the 
program is on track. We have a great relationship with both 
Strategic Command as well as the Army in how we do the 
transition transfer of that program. So I'm very pleased with 
that.
    Senator Cochran. In connection with the testing that you're 
doing on all of our defensive systems, is the budget request 
consistent with what your needs are?

               BALLISTIC MISSILE DEFENSE BUDGET ACCURACY

    General Obering. Yes, sir. We believe so. Like I said, 
we're spending almost $2 billion of our budget on testing every 
year now, across the board. The constraints that we have 
primarily have to do with range infrastructure in terms of--for 
example, in Hawaii, we have the Pacific missile test facility 
there completely maxed out. We're basically--we have them 
engaged almost around the clock with our testing between the 
THAAD program and the aegis program and then support of long-
range test as well, and they are doing a great job.
    But we also like to make sure that we have enough time 
between these tests to evaluate all of the data and to be able 
to make any adjustments in how we conduct the next test. So 
there is a serial nature to this.
    Senator Cochran. Is there cooperation among other 
departments and agencies and services in the Department of 
Defense in your plans for an aegis deployment? Do you have the 
ships that you need and the other ingredients or elements of 
that system in place or does this budget contain requests for 
additional funding for those items?

DEGREE OF INTERSERVICE COOPERATION IN BALLISTIC MISSILE DEFENSE SYSTEMS 
                              DEVELOPMENT

    General Obering. Well, it contains requests for additional 
funding, for example, of the aegis. We're actually ramping up 
the interceptor production as well on the aegis program for the 
standard missile 3s (SM-3s) and we will have more than 132 of 
those in the--as I mentioned, on 18 ships in my opening 
statement.
    We have worked very successfully with the Navy in planning 
for the transition of the Block 1 missiles, the first version 
of that. Now, in those 132 missiles, that will consist of three 
different configurations--Block 1, Block 1A, Block 1B. So there 
are always changes that we're making to improve the 
performance, the capabilities, et cetera. But I've been very 
pleased with the Navy and how we have been working together in 
planning that transition transfer.

                       INTERNATIONAL COOPERATION

    Senator Cochran. My question is on the extent of 
cooperation we're getting from European allies in the placing 
of radars and other systems that are essential to the success 
of these programs. Is that improving or do you have problems 
there that we need to know about?

  EXTENT OF ALLIED COOPERATION IN BALLISTIC MISSILE DEFENSE RADAR AND 
                         INTERCEPTOR PLACEMENT

    General Obering. Well, sir, both the Czech Republic 
Government and the Government of Poland have been extremely 
forward-leaning with us and as I said earlier, we've exchanged 
diplomatic notes. We believe the formal negotiations will begin 
here about the mid part of May and we hope to conclude those 
this year so that we can begin site preparation work next year. 
That will allow us to have an initial placement of an 
interceptor, for example, in Poland in the latter part of 2010 
or the first part of 2012, and complete that work in 2013. And 
as I said earlier, that gives us a very narrow path, really, 
with respect to the ambiguity in an Iranian development 
program. We believe that's why we need to get started and 
continue that. And we are getting strong support.
    By the way, I met with the President and the prime minister 
of the Czech Republic on Monday and also with members of their 
parliament. I addressed their parliament and I also talked to 
the leader of the opposition party there and again, I believe 
that we see a really strong support among the government and 
we're seeing good support within their parliament and so I'm 
very optimistic there.
    Senator Cochran. Thank you. Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming General 
Obering to this hearing.
    I would like to thank him, and the men and women he 
represents, for their important service to our Nation. The 
Missile Defense Agency plays a major role in protecting the 
United States and our deployed forces from missile attack. 
North Korea's missile tests last year and Iran's nuclear 
activity provide clear examples of the need for the United 
States to continue to develop and deploy our ballistic missile 
defense capability.
    I very much appreciate the efforts of the Missile Defense 
Agency and I look forward to this opportunity to review the 
progress we are making to defend against threats to our 
security from missile proliferation.

DEGREE OF CONFIDENCE IN BALLISTIC MISSILE DEFENSE SYSTEM EFFECTIVENESS, 
                             WHEN DEPLOYED

    Senator Dorgan. Mr. Chairman, there are only 5 minutes 
remaining on the vote so I will be brief. But let me submit 
some questions, Generals.
    Thank you for being here. Let me ask quickly, assuming that 
you have deployment of all that which you intend to deploy, 
with what confidence will these defensive systems operate 
against an offensive threat? Some, as you know, suggest that 
offensive systems almost always overcome defensive systems over 
time and there are some who suggest that upon deployment, the 
issue of dummy warheads and tumbling warheads and a whole 
series of issues will allow some to overcome a defensive 
system. So with what confidence at this point, does the 
deployment perceive?
    General Obering. Well, sir, I will say that first of all, I 
have a lot of confidence based on the test results that we've 
seen so far. To address the countermeasures issue--which is 
what you are referring to, the dummy warheads, decoys, and that 
type of thing, we have two efforts that are underway. The first 
major improvement in that will be the massive SBX radar, for 
example, that we have now deployed to Adak, Alaska, and has 
been--we've moved it down just off the coast of California now, 
to participate in our test program. That represents a 
capability that is unmatched and it will be able--and you've 
probably heard me say this before--if we place it in the 
Chesapeake Bay, we could actually discriminate and track a 
baseball-sized object over San Francisco. So it has the ability 
not only to track but to image the threat sweeps. So we believe 
that will add a tremendous capability and the radar algorithms 
to support that--we're going to deploy both to that radar as 
well as to the forward deployed smaller versions of the radar, 
like we have in Japan.
    The second thing we're doing because that is still a very 
tough problem, is that we're developing an MKV program. That 
means that for every one interceptor, it would actually be able 
to take out what we call credible objects, which could be 
warheads or could be balloons or decoys or dummy warheads for 
each one of the interceptors. It doesn't mean that we can 
counter a massive raid attack like you may encounter from a 
country like Russia or something, which this system is not 
designed for but it does help us with countries like Iran and 
North Korea, who are going to get better in terms of being able 
to use countermeasures. It allows us to take care of those.
    Senator Dorgan. My question was designed more to--and it 
may be a classified answer. I assume that one approaches this 
not just with the ``I have confidence'' but with ``we have a--
--
    General Obering. We have data, yes. We have the data but I 
can't go into what it is.
    Senator Dorgan. That is classified?
    General Obering. It is. But suffice to say that based on 
everything that we have seen, it's very high confidence in that 
capability.
    Senator Dorgan. All right. I'm going to submit some 
questions on the ABL. I went out and visited that, I guess, 6 
years ago or so and it slipped, I think, 4 or 5 years in that 
period. It seems to me to be a fascinating, interesting 
technology but it continues to slip. I heard your answer on 
that as I walked in the room. I apologize for having been late 
but I'm going to submit some questions on the ABL and also the 
issue of protection against cruise missiles, which you referred 
to some. And because of the vote, Mr. Chairman, I will have to 
hustle along in order not to miss it, but let me thank you for 
appearing and I will submit my questions in writing. Generals, 
thank you very much.

                   BALLISTIC MISSILE DEFENSE SENSORS

    Senator Stevens [presiding]. That's why Senator Inouye and 
I run the relay to make sure that we don't delay the Generals 
by our voting schedule. But we appreciate your courtesy.
    I do think we ought to schedule a classified briefing on 
some of these questions and I'll ask the chairman to see if 
that's possible. But within what we can talk about here now, 
how many radars are parts of these integrated systems?

        DESCRIPTIONS OF RADARS USED IN BALLISTIC MISSILE DEFENSE

    General Obering. Sir, currently we have a forward deployed 
radar in Japan that have been tested and integrated in the 
system. We have the Cobra Dane radar that you're very familiar 
with in Shemya, Alaska. We have the Beale radar in California 
that has been tested and integrated into the system. We have 
the SBX that has been tested and we're almost done with that 
testing and then that will be integrated later this year in the 
coming months. We have also almost completely finished the 
testing on the Fylingdales radar in the United Kingdom and gone 
through the initial integration testing with that as well. So 
we are incorporating these sensors as they are available and as 
they are able to be deployed. And by the way, just on a side 
note, so far, the performance of the radars has exceeded our 
expectations with respect to accuracy and performance.
    Senator Stevens. I'd like to go into a classified 
discussion on those in terms of their interoperability and 
vulnerability. Those are questions I think should be explored 
by members of the subcommittee. But beyond that, there is a 
redundancy in it, isn't it? In the system?

      DESIGN REDUNDANCIES TO OVERCOME BALLISTIC MISSILE DEFENSES 
                            VULNERABILITIES

    General Obering. Yes, sir. We're adding more and more 
layers of redundancy every year and that is important as we go 
through because as you well know, on any type of a defensive 
system, you need to have that type of redundancy.
    Senator Stevens. The NODONG 2 would certainly reach Shemya, 
couldn't it?
    General Obering. Well, the TAEPODONG 2--yes, sir. Yes, sir. 
We believe it would have certainly the range to do that.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Senator Stevens. What about the aegis--the standard missile 
program? I'm told that you have several control systems and the 
third stage rocket motor. The overall status of this aegis 
system, is it disclosed in your statement or in General 
Campbell's?
    General Obering. Sir, I talk about that a little bit in my 
written statement but I'll be happy to answer a couple of 
things. There were two issues that we were having to address as 
part of our development on the aegis SM-3. One was the third 
stage rocket motor and the other was the solid divert 
anticontrol system module for the interceptor. We have now 
flown the third stage rocket motor and we have shown that it 
does and can do the pulsing that was designed. That was the 
hang-up in some of the previous testing. The solid divert 
matching control module, we have also tested that. We've gone 
through exhaustive testing on the ground. That is planned for 
the next flight testing in terms of whether or not they are 
flight proving that that design change is working well. But all 
indications from our ground testing and hot fire testing are 
that we have solved the problem that was hanging that up.
    Senator Stevens. Will that be tested on the ship this year?
    General Obering. Yes, sir. It will be tested in our flight 
test.
    Senator Stevens. Are there any major challenges to that 
test?
    General Obering. I'm sorry, sir?
    Senator Stevens. Are there any major challenges to that 
test?
    General Obering. No, sir. In fact, we're planning to 
conduct that test tomorrow.

   TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TRANSITION TO THE ARMY

    Senator Stevens. General Campbell, you mentioned THAAD. 
When is that going to--that transition soon--when is that?
    General Campbell. Sir, that will transition approximately 
2010 to the Army and then we'll have some decisions to make 
about the actual deployment sites for those particular 
batteries.
    Senator Stevens. Are you developing milestones--up our way, 
we call them mileposts. Milestones get covered with snow--but 
mileposts for that program?
    General Campbell. Yes, sir. General Obering has milestones 
specifically for the development and we have milestones now 
that we are working for developing the concept of operations to 
employ the system.
    Senator Stevens. And you expect to be able to use it in 
2010?
    General Campbell. Approximately 2010, sir, yes. In fact, 
there is a possibility that we'd be able to use it in an 
exercise in 2009 if the development continues on its current 
path.

                             AIRBORNE LASER

    Senator Stevens. Go back to the ABL, if you would. Do you 
expect any delays in that program?
    General Obering. Sir, the delays that Senator Dorgan was 
referring to earlier, about November 2004, we really did, I 
believe, turn a corner on the program. Before that time, the 
program schedule was basically unstable. We were losing 2 days 
for every 3 days that we would attempt on a program. We have 
addressed that. The team pulled together. They focused on the 
technical programs and began to really resolve those.
    I will tell you that what I have seen since November 2004 
is a steady progression. There have been some minor delays here 
and there as they work through--mainly these are integration 
issues now. The actual functioning of the components, the laser 
modules themselves, the optical train and everything else, they 
have pretty much knocked down the technical issues. That is not 
to say that they are out of the woods. There is still work to 
be done. As I said, we should have some significant knowledge 
points on the program in the coming weeks, especially by the 
end of June, if they stay on the schedule that they're on. We 
should be able, by that time, to know whether the tracking 
laser works properly. As I said, we tracked the target 75 
kilometers away and closed that fire control loop. We should 
know if the beam illumination laser, the atmospheric 
compensation laser, is working properly and feeding that 
information into the system and we actually have a surrogate of 
the high energy laser on the aircraft as well. So we should 
know if the entire system is working the way that it is 
designed by the end of June. That will be a significant look 
ahead.
    And then if all of that is successful, we will dismantle--
we will put the aircraft back on the ground. We will open it up 
and we'll reassemble the high-energy laser onboard the aircraft 
and get that back in the air next year so that we can attempt 
to shoot down a boosting missile in the mid part of 2009.
    Senator Stevens. All three components will be back together 
onboard by 2009?
    General Obering. Yes, sir, and flying.
    Senator Stevens. Is that at Vandenberg?
    General Obering. We're actually doing that work between 
Wichita and Edwards Air Force Base, California and also I 
should say, Sunnyvale, California as well.

                           MIDCOURSE DEFENSE

    Senator Stevens. To go back to that GMD system, I'm told 
we've got about $2.7 billion allocated to this program through 
2008. But my staff tells me that we were short $1.1 billion in 
2007. Now, does that 2008 figure play catch up or are we still 
going to be short in that system?

   TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TRANSITION TO THE ARMY

    General Campbell. No, sir. I think that we will be caught 
up in terms of how we have managed the program and tried to 
bring the costs under control. It also adds more interceptors 
to the inventory. It begins to work down some of the costs 
variances that occurred. When we had, for example, if you 
remember, we had the explosion in California back in August 
2003 that wiped out one particular configuration of our 
booster. We lost six interceptors as a result of that 
explosion.
    Also, I diverted four more interceptors from the inventory 
into our flight and ground test program 2 years ago to address 
the initial failures that Senator Feinstein referred to and we 
will have caught back up on our original target inventory of 30 
by virtue of being able to basically put the resources where we 
need to within the program and like I say, we cut out some 
unneeded overhead to buy back at least four more of the 
interceptors this last year.
    Senator Stevens. I'll shift again. The chairman is here. 
One last question. On the aegis ballistic missile defense 
system, am I to understand that by the end of this year, all 
three services will be involved? The Air Force, the Army and 
the Navy?
    General Obering. In terms of the transition transfer of 
components, yes, sir. We have the early warning radars being 
transitioned to the Air Force. The aegis ships and their 
interceptors will be transitioned to the Navy and the Army is 
picking up responsibility for the forward deployed radars as 
well as the operation of the GMD system, so we have all three 
services engaged and we just got a letter from Admiral Mullins 
several weeks ago saying that the Navy would be the lead 
service for the massive SBX radar that I talked about that is 
going to be deployed to Alaska and California and we believe 
that's great news because that is an incredibly designed 
system. Just to let you know how well designed it is, when we 
moved it from Hawaii where we were doing the final radar 
calibration and some of the corrosion control work that we had 
delayed to get it out of the gulf in the summer of Katrina, in 
the hurricane season then. As it was moving from Hawaii up to 
Alaska, for a 72-hour period, it encountered continuous 70-foot 
waves and 75 mile an hour sustained winds with gusts up to over 
100 miles an hour and it did beautifully. I went and visited 
the crew when they were in Alaska and they were just amazed at 
how stable the platform was and how seaworthy and how well it 
performed. So we have very good news from that.
    Senator Stevens. I hope you're not around when a storm 
takes place up there.
    They did have a typhoon just north of that in 2005.
    General Obering. Yes, sir.
    Senator Stevens. Senator, thank you very much.

                             SPACE TEST BED

    Senator Inouye [presiding]. Thank you very much. In my 
opening remarks, I said that the GMD, THAAD, and aegis, if need 
be, can be operational and it costs us about $90 billion to get 
to this stage. There is a small item in this fiscal year 2008 
request, $10 million for a space test bed. How much would that 
cost?

      COST OF A TERMINAL HIGH ALTITUDE AREA DEFENSE SPACE TEST BED

    General Obering. Well, sir, we have a very small amount 
allocated across the entire defense program out through 2013 
that is, I think it totals around $300 million for that space 
test bed.
    What we're doing there, if I could elaborate there a little 
bit. We believe that it is always prudent to continue to think 
about the future and what you may need in the future. We 
believe that space offers a lot of flexibility. It offers a lot 
of attraction with respect to that flexibility and the access, 
et cetera that can be accommodated from space.
    So we allocated this very small amount to do foundational 
testing, to see whether or not you could apply missile defense 
from space. It's in keeping with the President's space policy 
and it is in keeping with this idea of trying to balance the 
future versus the near term. I'll give you an example of why 
that is important, I think. If we had only concentrated on the 
near term back in the early 1990s, then about the systems that 
we would have would be probably the Patriot, since that was 
underway and the THAAD program, which was also underway. But 
programs like the GMD, at that time, were considered futuristic 
and if we had not maintained that balance overall in the agency 
at the time, then we would not have had a system to turn on 
last summer when North Korea did what they did.
    So it is a very, very--as you say, very small amount out of 
the $8.9 billion that we've requested. But we think it's 
prudent to do that experimentation. Now this does not buy any 
hardware, the $10 million. It does not start any type of an 
interceptor program. What it is doing is funding 
experimentation, analysis, and studies so that we can engage 
with our contractors to understand what is within the realm of 
the possible and what is not. For example, if you were to add a 
space-based layer other than sensing, you would need to really 
understand weight and the cost per pound to orbit and what kind 
of improvements can be made there. You really need to 
understand the kinetic control and battle management concept of 
operations and how would that be done. You need to understand 
the differences in sensing from space as well as from the 
ground. So there is a whole host of questions that would be 
answered with this very small experimentation.
    We think that there will be a healthy debate--should this 
country decide that it needs to do that in the future; there 
will be a healthy debate as to whether we actually go ahead 
with that type of capability. We believe that this would help 
to inform that debate because it may be such a technical 
challenge that it may not be worth pursuing and that's the type 
of thing we're trying to answer.

                         COOPERATION WITH JAPAN

    Senator Inouye. So this phase of the program will not be 
carried out at the expense of what you're doing now. Our 
largest partner in missile defense is Japan and the total 
contribution, I think, is about $5 billion and there are plans 
to spend more than $1 billion to co-develop the standard 
missile block for sea-based missile defense. I'm concerned that 
MDA's abrupt decision to move away from this upgrade could 
affect the relationship. Am I correct?

      JAPANESE BALLISTIC MISSILE DEFENSE DEVELOPMENT PARTICIPATION

    General Obering. Well, sir, let me talk to that. First of 
all, I talked to Senator Feinstein and Senator Durbin about the 
threat maturation, we know that we are going to be faced with 
threats in that timeframe, meaning in the next decade, that 
are, in fact, going to be complex. They are going to be able to 
use decoys and countermeasures and that type of thing and 
you're going to have to have the ability, working with the 
radars as well, to be able to counter those decoys and that 
type of thing. So you're going to have to have an ability to 
kill more than one object with an interceptor or it won't be 
cost effective in terms of the number of interceptors you'd 
have to fire at any given threat missile. We have been--this is 
a deviation in terms of the kill vehicle planning that we 
agreed upon with the Japanese, the initial analysis now almost 
2 years ago. So what we're doing is we have launched another 
analysis, working with the Japanese so that they can understand 
the rationale--they can understand the threat maturation that 
we see. They can understand the need for this and they have 
shown us that they are interested in the looking at the results 
of that analysis. We've gotten positive answers back on that.
    I'm sure it is a concern to them because it is a change to 
the program, but when we first started the program back in 
June, when we kicked this off, I told them at that point that 
there are two things we have to be careful of. One is, we want 
to be able to take advantage of technology improvements that 
may come out and number two, we have to be able to address 
maturations in any evolving threat. So from the beginning, 
we've talked about this. It's a matter of making sure that they 
stay on board with us through these analyses, these studies and 
these engagements. So I believe that once they understand the 
facts and the figures, as we can present them, I think they 
will feel better about this.
    And by the way, as you state, that is a very strong 
relationship. It is a very strong partnership. They are 
developing those co-technologies that we've been co-developing 
with them already, as I stated in the opening statement. We 
have a very strong co-test program, participation in testing. 
In fact, they intend to have a flight test this year, which 
they will use Japanese SM-3 in that flight test. So we're--it's 
a very strong relationship and we stay engaged with them on a 
regular basis. I'll be headed back to Japan here in just the 
next month or so.
    Senator Inouye. A recent test of the THAAD has been 
successful. What's the next step?

           TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TESTING

    General Obering. The next step is, we will fly a test 
missile at the White Sands Missile Range that allows us to 
explore further elements of the envelope, meaning we will fly 
at lower altitudes much longer to see how well the missile 
performs. That will not be against a target. But then later in 
the year, we plan to fly against a separating target--that 
means a warhead that is separated from a booster, to be able to 
engage that and that would occur in the Pacific.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. General Obering, General Campbell, I have 
several other questions I'd like to submit but we have another 
meeting so if we may, can we just submit our questions for your 
responses?
    General Campbell. Yes, sir.
    Senator Inouye. I would appreciate that and with that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questons Submitted by Senator Daniel K. Inouye
    Question. The interceptors in Europe will be downsized versions of 
the ones currently in Fort Greely and Vandenburg. How much development 
and testing needs to be done on these two-stage interceptors in order 
to ensure that they are capable of intercepting a ballistic missile? 
Are we moving too rapidly on fielding this capability before this 
development and testing takes place?
    Answer. The interceptor planned for deployment in Europe is a 2-
stage configuration of the currently deployed and flight-tested 3-stage 
booster at Fort Greely and Vandenberg Air Force Base. The common 
components between the 2-stage and the 3-stage booster have undergone 
significant, ground, flight, and qualification testing as part of the 
3-stage development effort. Because the 2-stage interceptor planned for 
Europe has fewer components than its 3-stage predecessor, the planned 
2-stage variant is a less-complex version of the successfully tested 
and fielded 3-stage interceptor.
    The 2-stage interceptor program includes rigorous component 
qualification, integration testing, ground testing, and flight testing. 
The current flight test plans for the 2-stage variant feature two 
flight tests prior to completion of the first 2-stage interceptor for 
deployment, one of which includes EKV intercept of a threat-
representative target. The Ground-Based Midcourse Defense (GMD) Fire 
Control (GFC) and Command and Launch Equipment (CLE) software adapted 
for the 2-stage interceptor will also be included in the 2-stage 
intercept flight test. The 2-stage intercept flight test is tentatively 
scheduled for 2QFY11 with initial interceptor emplacement in 4QFY11. 
Prior to the intercept flight test, we will perform a booster 
verification flight using an EKV mass simulator.
    The Missile Defense Agency has identified and is currently working 
to mitigate risks for 2-stage interceptor development. Overall, the 
development and fielding for the 2-stage interceptor is low risk. The 
most noteworthy risks are with the software changes and integration 
required with the 2-stage interceptor, the CLE, and the GFC in order to 
optimize the interceptor's performance envelope. These risks will be 
mitigated through our ground and flight test programs.
    Booster modifications (3-stage to 2-stage) are neither uncommon, 
nor unprecedented. In fact, the Payload Launch Vehicles (PLVs) flown in 
the GMD program's first ten Integrated Flight Tests (January 1997 
through December 2002) were 2-stage variants of the standard 3-stage 
Minuteman boosters. So, the Missile Defense Agency has successful prior 
experience in modifying 3-stage boosters to fly 2-stage missions.
    Given our experience in booster modifications and integration, 3-
stage leveraging and lessons-learned, and the planned 2-stage 
qualification, ground, and flight testing prior to the first European 
emplacement, the Missile Defense Agency does not believe that we are 
moving too rapidly in fielding this critical capability.
    Question. How many Standard Missiles are we buying in fiscal year 
2007 and how many are we planning to buy in fiscal year 2008? Why does 
MDA incrementally fund its missile programs, and when will they be 
budgeted for in procurement accounts?
    Answer. MDA is planning to deliver 13 Standard Missile-3 Blk IA's 
in fiscal year 2007 and 20 additional Blk IA missiles in fiscal year 
2008. MDA currently has authority to use RDT&E funds to develop and 
field missile defense capability. Incremental funding provides the 
flexibility to procure more diverse warfighting capability for the same 
investment. An element of the BMDS, the SM-3 Blk IA, is a developmental 
asset that has not reached the level of technical maturity required to 
support use of procurement funding.
    The Agency's plan is to transfer and transition certain elements 
and components of the BMDS to the Military Departments for production, 
sustainment and operation. At that time, the Military Departments will 
budget and request procurement and O&M funding to acquire and sustain 
these systems. In the case of the SM-3 Blk IA, the sustainment 
responsibility will transfer to the Navy in fiscal year 2008 in 
accordance with the Aegis BMD Block 04 Transition Memorandum approved 
by the Deputy Secretary of Defense on March 9, 2007.
    MDA will continue to develop the BMDS using a capabilities-based, 
spiral development approach that gives the Agency the flexibility to 
use developmental assets such as the SM-3 Blk IA to provide initial 
ballistic missile defense capabilities to the warfighter while 
concurrently continuing our development and testing regimen.
    Question. A study is underway to look at sea-based platforms to 
host the Kinetic Energy Interceptor. However, there are challenges 
associated with each ship or submarine platform being considered. Can 
you update the Committee on the study and tell us what platforms are 
best suited to host the KEI?
    Answer. The Kinetic Energy Interceptors Sea-Mobile Platform 
Alternatives Assessment is conducting a detailed analysis of six 
specific ship and submarine classes: DDG-51, flight IIA (surface 
combatant), LPD-17 (amphibious assault ship), T-AKE (support ship), CV-
2500 (commercial container ship), SSGN (OHIO class SSBNs converted for 
non-strategic missions), and a conceptual SSXN (potential conversion of 
OHIO class SSBNs to the missile defense mission). Prior related studies 
have indicated that these ship classes provide a broad range of 
benefits and challenges in supporting Kinetic Energy Interceptor's 
missions. This study will greatly reduce the risk of a costly booster 
vehicle redesign should the Agency decide to field the Kinetic Energy 
Interceptors on ships or submarines.
    The Alternatives Assessment will be completed in September 2007 
with an assessment of each platform's mission performance, cost, and 
risk across the entire Kinetic Energy Interceptor mission space: boost, 
ascent, and midcourse. Near term, the results of the Alternatives 
Assessment will be used to help ensure that the Kinetic Energy 
Interceptor booster design is compatible with likely sea-based 
platforms and inform Agency trade studies on investments in future 
capabilities. The specific sea-based platforms on which Kinetic Energy 
Interceptor is fielded will be determined when there is an Agency 
decision to develop sea-mobile Kinetic Energy Interceptor capability.
                      ground-based missile defense
    Question. What milestones and testing events need to occur prior to 
announcing an initial operating capability of the ground-based missile 
defense system?
    Answer. Today, the Ballistic Missile Defense System (BMDS) could 
provide a limited defense if called upon as the initial set of 
capabilities necessary to defeat an incoming ballistic missile have 
been fielded and demonstrated. These capabilities are currently in a 
``shakedown period'' under which our crews are gaining valuable 
experience in their operations, and should some threat arise, we could 
transition from a test phase to an operational phase in a matter of 
hours. MDA is working with the warfighters to ensure they are ready to 
operate the system when directed as well developing the capability to 
operate and test the BMDS concurrently.
    A Secretary of Defense decision to put the system on a higher level 
of alert will be based on a number of factors. These factors include: 
the advice he receives from the Combatant Commanders, and other senior 
officials of the Department; our confidence in the operational 
procedures we have developed; demonstrated performance during both 
ground and flight tests; modeling and simulation; and the threat.
    Question. If the third stage rocket motor is removed from the 
ground-based interceptor, can it do boost phase intercept? What would 
its capabilities and characteristics, including size and mobility, be 
in comparison to the Kinetic Energy Interceptor?
    Answer. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. General Obering, since, as you testified, the current 
Ballistic Missile Defense (BMD) initiatives are designed to counter the 
asymmetrical threat from Iran and North Korea, what formal negotiations 
are currently underway to obtain acquiescence from the Russian 
Federation for the deployment of these systems? Does the Department of 
Defense intend to proceed with the stationing of missiles and radars in 
Eastern Europe independent of Russian Federation acceptance of the 
deployments?
    Answer. The deployment of Ground Based Interceptors and a Mid-
Course Radar to Europe is critical to the defense of the United States, 
its deployed forces, and its European friends and allies. We do not 
believe Russia ought to be able to exercise a ``veto'' over our 
decision to proceed. However, the Department will continue its efforts 
to explain the non-offensive nature of the Ballistic Missile Defense 
system to the Russian Federation and will continue to provide 
transparency into our efforts and seek ways in which we may cooperate 
with Russia on missile defense.
    Question. General Obering, the proposed missile defense deployments 
in Poland and the Czech Republic have sparked a great deal of public 
debate, and the bilateral agreements you reach with those countries 
will be subject to approval by their respective Parliaments. In light 
of the fact that it is far from certain that both countries' 
governments will approve these deployments, how do you justify the 
large funding request in the fiscal year 2008 Budget for this program? 
Would it be more prudent to first ensure that this project will be 
allowed to proceed before committing these funds?
    Answer. There are two principal agreements under negotiation with 
the Czech Republic in support of the European ballistic missile defense 
sites in the Czech Republic (radar) and in Poland (ground-based 
interceptors): a Defense Basing Agreement (status of forces and general 
basing provisions) and a Ballistic Missile Defense Agreement 
(provisions for the construction, maintenance, sustainment, and 
operation of the sites). Progress on these agreements has been timed to 
support the approved program of record resourced in the fiscal year 
2008 President's Budget request.
    Since the 2nd quarter of fiscal year 2006, our approved program of 
record has specified major construction contract award in the 4th 
quarter of fiscal year 2008. Negotiations of the two agreements with 
each country began in May 2007 with a goal completion by Fall 2007, 
well before the need date of 4th quarter of fiscal year 2008. Based on 
the approved program of record, negotiation of the Defense Basing 
Agreement and Ballistic Missile Defense Agreement with both the Czech 
Republic and Poland are proceeding on schedule. The Polish and Czech 
governments publicly support this initiative, and we are confident that 
the governments will work with us to conclude the agreements as soon as 
possible.
    Question. General Obering, you testified that a ballistic missile 
defense deters nations from developing weapons that can be countered. 
You also testified that Iran and North Korea currently are developing 
missile technology at a ``sprint pace.'' Since the United States claims 
to have a functioning missile system defense against limited attacks in 
place, why is this not deterring their development efforts? What 
evidence is there that a missile defense program will serve as an 
active deterrent to a rogue nation missile or nuclear development 
program?
    Answer. My testimony made the point that missile defenses could 
help dissuade a government from further investing in ballistic missiles 
and deter it from using those weapons in a conflict. But the threats 
posed by rogue nations such as Iran and North Korea continue to 
challenge our notions of deterrence and defense. Surprise--strategic, 
tactical, and technical--is an expected feature of today's security 
landscape. While deterrence remains the cornerstone of our strategy, we 
recognize an increased risk that deterrence may fail. The actions of 
North Korea and Iran this past year demonstrate the determination of 
these rogue regimes to achieve a ballistic missile capability and 
potentially weapons of mass destruction to further aggressive ends. 
Under such circumstances, missile defenses are highly desirable as a 
hedge against the failure of deterrence. As the robustness of the 
capability fielded increases, we could expect that the deterrent effect 
of this initial capability would grow by reducing an adversary's 
confidence in the success of an attack.
    Question. General Obering, what missile system is being considered 
for the Polish deployments and are the development schedules and the 
deployment schedules in sync?
    Answer. The interceptor planned for deployment to Poland is a 2-
stage variant of the currently deployed and flight-tested Ground-Based 
Midcourse Defense (GMD) 3-stage Ground Based Interceptor (GBI) deployed 
at Fort Greely and Vandenberg Air Force Base. The development and 
deployment schedules are synchronized.
    The GMD 2-Stage booster development strategy starts with the 
currently deployed and flight-tested 3-stage booster. Boeing and its 
booster subcontractor, Orbital Sciences, began working 2-stage 
development activities on February 23, 2007. In fiscal year 2007 and 
early fiscal year 2008, the booster contractor will conduct design 
trade studies and electronic piece/part level testing. A Program 
Critical Design Review is scheduled to occur December of 2008. In 
fiscal year 2009, the booster contractor will complete design 
modifications and component-level qualification to eliminate the third 
stage rocket motor and repackage the booster electronics that were 
located on the third stage. Additionally, navigation and guidance 
software changes will be implemented to enable the interceptor to 
perform mission profiles for two stages of flight versus three.
    The GMD 2-Stage booster test program includes both ground and 
flight tests. Two Ground Test Missiles (GTM) will be delivered in the 
second quarter of fiscal year 2010. Ground tests begin in the third 
quarter of fiscal year 2010. Two flight tests are planned to prove out 
the GMD 2-Stage booster performance prior to deploying any of the ten 
2-Stage GBIs (interceptor numbers 45 through 54). A booster 
verification flight using an Exoatmospheric Kill Vehicle (EKV) mass 
simulator will precede a flight test with intercept from the same 
location utilizing a flight qualified EKV against a threat-
representative target. The booster verification flight is scheduled for 
the fourth quarter of fiscal year 2010 and the flight test with an 
intercept is scheduled for the second quarter of fiscal year 2011, both 
from Vandenberg Air Force Base in California. Interceptor deployment 
into the European Site is scheduled from the fourth quarter of fiscal 
year 2011 through the second quarter of fiscal year 2013.
    Question. General Obering, will a 10 missile deployment be adequate 
to counter the potential threat from Iran or North Korea if long-range 
missiles being developed by these nations are used in conjunctions with 
decoys? What integrated system testing has been done to simulate this 
challenge? What testing is being planned?
    Answer. [Deleted.]
    Question. General Obering, since command and control of the Eastern 
European deployments will be in the United States, what involvement 
will NATO, the Czech Republic or Poland have in the command and control 
of these systems? Will NATO support the deployment of this system?
    Answer. Our NATO Allies understand that the time available to react 
to a hostile missile is measured in minutes, not hours. Further, they 
understand this requires the system to be highly automated with 
engagement procedures worked out in advance. We have assured our NATO 
Allies that they will be consulted as these engagement procedures are 
developed.
    Further, we have considered offering situational awareness nodes to 
Poland and the Czech Republic, and suggested that a similar node could 
be provided to NATO. The situational awareness node will provide a 
status of the system so that the viewer will be constantly apprised of 
the system status. The United Kingdom already has a situational 
awareness node because it hosts the Fylingdales Upgraded Early Warning 
Radar.
    Finally, we will work with our NATO Allies to develop crisis 
management/decision procedures to be implemented during times of 
increased tension that may result in the launch of ballistic missiles 
against the United States or Europe.
    We are actively working with NATO so that it will not only support 
but will welcome the deployment of a U.S. missile defense system to 
Europe because the Allies agree there is a threat and understand that 
the planned U.S. assets in Europe would be highly complementary to any 
future NATO missile defense effort. NATO is already developing ways to 
link Allies' short- and medium-range missile defense assets through its 
Active Layered Theater Ballistic Missile Defense (ALTBMD) system. The 
U.S. system provides a defense to Europe and the United States against 
long-range ballistic missiles. Combined, the two systems could begin to 
defend all of Europe from the full range of threats. Over the last six 
months officials from the Missile Defense Agency, Office of Secretary 
of Defense, and State Department have met numerous times with our NATO 
Allies to explain the threat and proposed U.S. deployment.
    Question. General Obering, what type of NATO missile defense 
deployments are currently being planned and how much is being invested 
by European nations in such a venture?
    Answer. NATO currently has an Active Layered Theater Ballistic 
Missile Defense (ALTBMD) program to develop a command and control 
capability to link NATO countries' short range missile defense assets 
together to protect deployed NATO forces and other high value assets 
from short and medium range missile attacks. The ALTBMD Program will 
upgrade existing NATO command and control systems, and will create 
ALTBMD defense capability at all NATO command levels, from the 
strategic to the tactical levels.
    The ALTBMD Program Office signed a contract worth approximately $95 
million with an international consortium led by Science Applications 
International Corporation to develop and operate an integration test 
bed for developing and testing the integration/linking of different 
short range missile defense architectures.
    Several NATO member countries currently possess missile defense 
assets that will be contributed to NATO and linked together via the 
ALTBMD program. Germany has the Patriot system and is a partner, along 
with the United States and Italy, in the Medium Extended Air Defense 
system. The Netherlands also has the Patriot system and is developing a 
long-range capability for maritime search and track of ballistic 
missile threats. France is currently developing the SAMP-T air defense 
system, which will have capability against ballistic missiles in future 
upgrades. Greece has Patriot systems that could be upgraded to have 
ballistic missile engagement capability. Denmark and the United Kingdom 
agreed to allow the United States to upgrade early warning radars on 
their territory and use these radars for BMD.
    Question. General Obering, in addition to the threat of nuclear 
weapons, the threat of chemical and biological weapons has been put 
forward as a rationale for the deployment of a ballistic missile 
defense system. Is there evidence of Iranian or North Korean research 
to develop inter-continental ballistic missile weapons or warheads 
capable of both the accuracy and payload survivability to support these 
concerns?
    Answer. [Deleted.]
    Question. General Obering, what are assessed to be the most 
realistic current threats from Iran: short, medium, or long range 
missiles? What coverage against an Iranian launch will the Eastern 
European ballistic missile defense deployment provide that cannot be 
covered by THAAD, PAC-3, and Aegis deployments?
    Answer. In November 2006 and January 2007 Tehran demonstrated that 
it has short and medium range ballistic missile capabilities by 
conducting several short- and medium-range ballistic missiles and 
rocket launches. In the November exercises Iran demonstrated for the 
world its offensive capabilities via televised broadcasts. Iran 
dedicates significant resources to acquire ballistic missiles, to 
include new medium- and intermediate-range systems capable of reaching 
forward-deployed United States forces and our allies and friends. Our 
intelligence community assesses that Iran would be able to develop an 
ICBM before 2015 if it chooses to do so. With the missile firings over 
the past year, they have also demonstrated the ability to conduct 
coordinated launch operations.
    The capability provided by a GBI site located in Poland, a European 
Midcourse Radar located in the Czech Republic, and a forward deployed 
radar could provide redundant protection coverage of 90 percent for the 
United States and Canada and 100 percent coverage for the territory in 
NATO that is threatened by long range missiles from Iran, but only by 
intermediate and short range missile defense forces, such as PATRIOT 
PAC-3. U.S. missile defense forces such Aegis SM-3 and THAAD (supported 
by an AN/TPY-2) could be deployed in a crisis to fill any coverage 
gaps.
    Question. General Obering, what is the timeline for Aegis equipped-
vessels to have counter-ICBM capabilities and what are the greatest 
technological challenges to the development of this system?
    Answer. The 21-inch diameter Standard Missile-3 (SM-3) Block IIA 
interceptor paired with the Aegis BMD 5.1 Weapon System will increase 
our capability by defeating longer-range ballistic missiles, up to and 
including some Inter-Continental Ballistic Missiles. We have requested 
funding in fiscal year 2008 to support concept development and complete 
a System Design Review in fiscal year 2008.
    The primary technological challenges are the Lightweight VLS 
Canister and integrating the Aegis BMD 5.1 Combat System and BMDS to 
achieve the necessary ``quality of service'' required to extract the 
optimum SM-3 Block IIA performance through ``Engage on Remote'' 
operations. A lighter canister is necessary to offset the additional 
weight of the larger missile. The Lightweight VLS Canister will be the 
first one made with composite materials.
    The remainder of the SM-3 Block IIA missile, as funded in the 
program of record, is a scaled up version of the SM-3 Block IB and 
integrated into the Aegis BMD 5.1 Weapon System, thereby leveraging the 
legacy and investment in technological missile propulsion and warhead 
development. We are confident that these challenges can be met to 
support initial deployment in 2015.
    Question. General Obering, what are the current lift-phase 
intercept capabilities, what programs are currently underway to develop 
this capability, and what are the greatest hurdles to developing that 
capability?
    Answer. There is currently no operational boost phase intercept 
capability.
    We are developing two potential boost phase intercept capabilities 
to supplement currently fielded midcourse and terminal defenses. The 
Airborne Laser (ABL) element of Ballistic Missile Defense is the 
primary effort currently underway to address boost phase ballistic 
missile threats of all ranges. The high-acceleration Kinetic Energy 
Interceptor (KEI) booster (KEB) development effort, continuing on the 
recommendation of the Defense Science Board's, is an option in the 
event ABL does not meet critical knowledge points in its test program.
    The greatest hurdles to develop an operational ABL capability are:
  --Flight test of beam control and atmospheric compensation lasers 
        against a cooperative airborne target.
  --Integration of high energy laser modules with the modified Boeing 
        747 aircraft in preparation of a lethal shoot-down of a 
        ballistic missile target.
  --Maintainability--Demonstration of routine safe processes for 
        handling of corrosive on-board chemicals for extended flights.
  --Reliability of optical system performance, including compensation 
        for atmospheric effects, aircraft induced optical jitter, and 
        ensuring high beam quality in an operational environment.
  --Realization of producing additional ABL units within cost and 
        schedule to demonstrate readiness for weaponization.
    The greatest hurdles to develop an operational Kinetic Energy 
Interceptor capability are items such as booster fly-out meeting the 
high performance, high maneuverable requirements, the trapped-ball 
thrust vector control, or the ability to get and process data in a 
operationally useful timeline as potential technical hurdles for KEI. 
Additionally:
  --Maintaining flexibility to integrate with Multiple Kill Vehicle 
        capability in the future and/or using the KEB as a replacement 
        booster for our other kinetic energy components;
  --Maintaining options to develop a land-mobile launcher and fire 
        control system as well as an option for a sea-based capability;
  --Mitigate critical risk areas prior to making full budget 
        commitments;
  --Flight test of high acceleration booster.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                             airborne laser
    Question. When I visited the Airborne Laser program at Kirtland AFB 
in January 2000, I was told that the Airborne Laser program was on 
schedule to do a lethal shoot-down in 2003 and that the first aircraft 
of a seven-aircraft fleet would be deployed in 2007. Now the first 
shoot-down attempt is scheduled for 2009 and there seems to be no plans 
for deploying the system.
    Can you explain to me in layman's terms what has caused the program 
to slip so much?
    Answer. In January 2000, the Airborne Laser (ABL) Element of the 
Ballistic Missile Defense System (BMDS) was scheduled to conduct lethal 
shootdown in 2003 and to deploy the first of a seven-aircraft fleet in 
2007. However, the ABL Element has evolved considerably since 2000 in 
response to technical and programmatic challenges in developing this 
powerful, revolutionary, speed-of-light weapon system. Major 
adjustments to the program and its schedule have arisen primarily from:
  --Technological complexity of the program's revolutionary 
        capabilities: a high-power chemical laser and associated beam 
        control optics on a flying platform;
  --Risks associated with rapid prototyping during the early part of 
        the program;
  --Prior to 2004, programmatic focus on a single objective of 
        shootdown, rather than incremental successes in proving 
        technology and capability (i.e., knowledge points); and
  --Unforeseen technical discoveries during development, integration 
        and test, especially during hardware/software integration.
    In 2004, the MDA Director refocused the ABL Element and directed 
the use of an incremental, knowledge-based acquisition approach, a 
change which shifted lethal demonstration from December 2004 to late 
2008. The ABL Element has recognized more efficiency both in terms of 
schedule and costs as a result of this change. Technical discoveries 
since the 2004 restructure have only recently pushed the projected 
shootdown date to 4QFY09.
    ABL is on the cutting edge of technology in almost every aspect of 
its development. Each component of the ABL has overcome significant 
technical challenges, often through the invention of ``first-ever'' 
technological achievements. Moreover, the rapid prototyping approach 
prior to the 2004 restructure offered the prospect of quick operational 
capability but also carried a higher risk of re-design and rework as 
many processes were attempted in parallel rather than in serial. The 
new restructured approach slows the development process down, but also 
significantly reduces risk. After all, the integration of the laser, 
optics, and software on a flying platform represents a level of 
complexity never before attempted in an airborne optical system.
    In summary, the ABL Element of BMDS is successfully developing a 
revolutionary, speed-of-light capability that will prove invaluable to 
the nation's defense against ballistic missiles and will establish a 
role for Directed Energy weapons in the future defense of the United 
States.
                         cruise missile defense
    Question. What capabilities do the ballistic missile defense 
systems that you are developing offer for defending against cruise 
missiles?
    Answer. The Ballistic Missile Defense System (BMDS) currently under 
development has been designed for defense in depth against short-, 
medium- and long-range ballistic missiles. Some of the elements 
designed for short- and medium-range ballistic missile defense also 
provide a capability for cruise missile defense. Chief among these are 
the Patriot Air and Missile Defense System and the Aegis Weapon System, 
upon which the Aegis Ballistic Missile Defense capability is built.
    The Patriot Air and Missile Defense System, being procured by the 
Army, provides a capability to detect, track and engage aircraft, 
cruise missiles, and tactical ballistic missiles in their terminal 
phase. These different target types can be engaged simultaneously. A 
Patriot Fire Unit is deployed with an AN/MPQ-53/65 phased array radar, 
an Engagement Control Station, and multiple missile launchers. Each 
launcher contains up to sixteen Patriot PAC-3 missiles. While the fly-
out of the PAC-3 missile limits Patriot engagements to fairly short 
ranges, a Missile Segment Enhancement currently under development by 
the Army will significantly increase the engagement ranges for all 
target types. This enhancement will form the basis for the Medium 
Extended Air Defense System (MEADS), being jointly developed by the 
United States, Germany and Italy, which will also have the capability 
to engage aircraft, cruise missile and ballistic missile targets.
    The Aegis Weapon System, deployed on Aegis-class Cruisers and 
Destroyers, also provides the capability to detect, track and engage 
aircraft, cruise missiles and ballistic missiles. These targets can be 
engaged simultaneously, as was demonstrated in the recent FTM-11 test 
of the Aegis Ballistic Missile Defense system. Unlike Patriot, Aegis is 
capable of engaging ballistic missiles in the ascent, midcourse and 
descent phases of their trajectories. The Aegis Weapon System is 
comprised of the AN/SPY-1 phased array radar, a Command and Decision 
system, and a Weapon Control System, capable of controlling the launch 
of multiple Standard Missiles from vertical launch cells. Different 
Standard Missile variants are currently used for the engagement of air 
and ballistic missile targets. The SM-2 Blk III and Blk IV missile 
variants developed by the Navy are used for the engagement of aircraft 
and cruise missiles, while MDA-developed variants to the SM-3 missile 
are used for the exoatmospheric engagement of ballistic missiles. 
Recently, MDA has funded modifications to the SM-2 Blk IV missile which 
will provide an endoatmospheric Sea-Based Terminal defense against 
ballistic missiles, making it dual-use for both air and ballistic 
missile targets. In addition, a new missile variant under development 
by the Navy, the SM-6, will replace the SM-2 for defense against 
aircraft and cruise missiles, and is under consideration for use by MDA 
as part of the Sea-Based Terminal ballistic missile defense capability.
    The Missile Defense Agency has recently been tasked by Congress to 
assess candidate architectures for the defense of the U.S. Homeland 
against asymmetric threats comprised of cruise missiles or short-range 
ballistic missiles launched from a ship off the U.S. coastline. Some of 
the elements of the BMDS described above would most likely have a role 
in such an architecture. In particular, while additional sensors would 
most likely be needed to detect and track low-flying cruise missiles 
over wide areas, the Patriot PAC-3 and the SM-6 Standard Missiles could 
potentially provide the engagement capability needed to counter both 
the asymmetric cruise and ballistic missile threats.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                  cost
    Question. A November 2006 report by the Congressional Budget Office 
states that the annual cost of missile defense could reach $18 billion 
by 2016. Is this an accurate assessment? If so, how can you justify 
spending so much on national missile defense given the number of 
national defense priorities we face? If not, what is a more realistic 
assessment and where did the Congressional Budget Office go wrong?
    Answer. The CBO estimate for total investment in missile defense 
programs for 2016 was about $15 billion and the estimate was based on 
carrying out all projected development and acquisition programs. The 
CBO noted that if cost risk is taken into account, the amount ``might 
be about $3 billion higher each year.''
    It will be several years before the Department of Defense 
Comptroller issues official fiscal guidance to MDA that includes fiscal 
year 2016. However, even without seeing future year fiscal guidance, it 
is safe to say that we do not anticipate our fiscal requirement for 
fiscal year 2016 will approach $18 billion as the recent CBO report 
suggests. We believe that the Department will likely maintain MDA's 
current ``top line''. Accordingly, this would amount to a funding level 
of approximately $10-$11 billion for fiscal year 2014 and beyond. 
Within this top line constraint, the Director, MDA, would recommend to 
the Department leadership the best course of action for balancing 
investments across the missile defense program that would allow us to 
continue to meet the priorities of the President, the Department, the 
Congress, and the Warfighter.
                        performance and testing
    Question. In March 2005, you were quoted as asserting that ``We 
could certainly shoot down an incoming missile if we needed to'' with 
the ground-based mid-course (GMD) system. Is that still your 
assessment?
    Answer. Yes, that is still my assessment for threats launched from 
North Korea to the United States. On July 4, 2006, North Korea did 
launch seven missiles capable of striking our allies and deployed 
forces in the Western Pacific, and also launched a Taepo Dong 2 long-
range missile believed to be capable of striking the Western United 
States. Our confidence in our assessment stems from the fact that we 
have successfully completed numerous ground tests, to include hardware 
in the loop, culminating in a flight test (FTG-02) that demonstrated a 
representative engagement.
    Question. We have deployed a missile defense system without any 
operational testing of the system. The system is not on alert. Is that 
accurate?
    Answer. Currently the fielded Ballistic Missile Defense System 
(BMDS) is not on alert at all times, but it is available to be placed 
on alert as demonstrated when we converted the system to alert mode 
prior to North Korea's missile launches on July 4, 2006. Transition to 
alert status is periodically exercised when STRATCOM conducts 
unannounced system readiness demonstrations. There is no need to keep 
the BMDS on continuous alert because it is continuously subject to 
recall, in response to changes in real world events, based upon changes 
in defense readiness conditions specified by U.S. Strategic Command.
    The fielded BMDS has been subjected to operationally-realistic 
combined developmental and operational testing, and we work closely 
with the Director, Operational Test & Evaluation, Operational Test 
Agencies, and Combatant Commanders to incorporate operational test 
objectives and include operational personnel, to the maximum extent 
possible, in all of our flight tests. We also work together to 
characterize the effectiveness and readiness of the system at every 
stage in its development and fielding.
    Testing under operationally realistic conditions is an important 
part of maturing the system. We have been fielding test assets in 
operational configurations in order to conduct increasingly complex and 
end-to-end tests of the system. Our flight tests are increasing in 
operational realism, limited only by environmental and safety concerns.
    For example, in September 2006, we conducted a long-range intercept 
flight test that exceeded our objectives. That complex test involved an 
operationally configured interceptor launched from an operationally 
configured silo at Vandenberg Air Force Base, operational sensors, and 
operationally trained crews manning the fire control consoles. The test 
demonstrated the functionality of the Exo-atmospheric Kill Vehicle and 
the ability to engage a threat-representative target using the Upgraded 
Early Warning Radar at Beale Air Force Base in California. After the 
kill vehicle acquired the target, launched from the Kodiak Launch 
Complex in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. This was our most operationally realistic, 
end-to-end test of the system involving the Ground-based Midcourse 
Defense element to date.
    Based on the many tests we have conducted to date, we maintain our 
confidence in the Ballistic Missile Defense System's basic design, its 
hit-to-kill effectiveness, and its inherent operational capability.
    Question. The system was put on alert when North Korea conducted 
missile tests in July 2006. At that time, the Missile Defense Agency 
stated: ``we currently do not have a capability to concurrently 
maintain the [Ballistic Missile Defense System] in full operational 
mode while simultaneously developing, testing, or training on the 
system.'' In other words, the Missile Defense Agency cannot walk and 
chew gum at the same time. If we have the system on alert, we have to 
stop testing, development, and training. Is that still your assessment? 
If it is, would you agree that it calls into the question the whole 
notion of ``spiral development'', that is fielding a system before it 
has been actually been operationally tested?
    Answer. The United States has the ability to put a Ballistic 
Missile Defense System (BMDS) on alert today because of the capability-
based, spiral development acquisition approach the Missile Defense 
Agency (MDA) has followed since 2002. This approach leverages 
collaboration with the warfighter community throughout development and 
testing to the point where we transition or transfer militarily useful 
capabilities to the operators.
    For the first time in the history of the United States when the 
North Koreans launched several ballistic missiles last summer, we had 
the capability of defending our people against a long-range missile.
    The issue of testing and training while the BMDS is in operational 
mode is complex and involves safety considerations as well as other 
technical matters. We are actively addressing this issue by developing 
the capability to conduct Concurrent Test, Training, and Operations. 
This capability will allow Combatant Commanders to keep the system in 
operational mode while we test, train, and make improvements to the 
system. Our spiral development strategy has allowed us to field an 
initial capability in record time and to improve that capability over 
time. Without spiral development, we would not have had any capability 
fielded last July.
    Testing under operationally realistic conditions is an important 
part of maturing the Ballistic Missile Defense System (BMDS). MDA is 
using a combined Developmental and Operational Testing (DT/OT) approach 
that uses Operational Realism criteria developed by MDA and Director, 
Operational Test & Evaluation (DOT&E). In fact, MDA has been fielding 
test assets in operational configurations to provide an initial 
capability while allowing us to conduct increasingly realistic and 
complex end-to-end tests of the system.
    Question. Is it your view that the American people are, at this 
moment, safer from a ballistic missile attack with a national missile 
defense system that is not on alert and has not been operationally 
tested?
    Answer. I believe the American people are safer at this moment 
because we have in place today a limited defensive capability to 
engage, with a high degree of confidence, a North Korean 
intercontinental ballistic missile. Prior to December 2004, the United 
States had no capability in place to intercept a North Korean warhead 
and prevent it from detonating in or over an American city. With the 
deployment of an initial defensive capability just under three years 
ago, we have begun to close a gaping hole in our defenses.
    We are able to monitor global missile launch activities continually 
using national intelligence, reconnaissance, surveillance and tracking 
assets, which are able to provide significant data on announced and 
unannounced launches and support missile defense readiness. We are able 
to focus many of these assets on countries of greatest concern, and, 
based on the commendable record of reporting from the Intelligence 
Community to date, I believe that we will have reliable, timely, and 
responsive indications and warning of potential and imminent ballistic 
missile launches out of North Korea.
    We demonstrated this past summer that we are able quickly to 
activate the Ballistic Missile Defense System and prepare it for 
emergency operations. We worked closely with the U.S. Strategic, 
Northern, and Pacific Commands, the Intelligence Community, and our 
allies during this real world event to ensure that the system was ready 
to engage the North Korean long-range ballistic missile, if necessary.
    The system available for emergency use today has undergone 
significant testing, with our most recent tests focused on 
demonstrating the functionality of the system under operationally 
realistic conditions. Over the years we have tested many of the 
hardware and software components of the Ground-based Midcourse Defense 
(GMD) system. In the September 2006 test of our GMD long-range defense 
capability, we used an operationally configured interceptor launched 
from an operationally configured silo at Vandenberg Air Force Base, 
operational sensors, and operationally trained crews manning the fire 
control consoles. Continuing our close working relationship with the 
warfighter community, operational test agencies, and the Pentagon's 
Director of Operational Test and Evaluation, we will configure the next 
test and subsequent tests of the GMD element, to similarly mirror a 
realistic operational event and feature greater test complexity. The 
growth in our confidence in this system's effectiveness is directly 
tied to our ability to practice with it in operationally realistic 
ways.
    We ought not discount the deterrence and dissuasion effects of what 
we have deployed. By fielding a system we can put on alert on very 
short notice, we deploy a defensive capability, the performance of 
which the enemy cannot possibly know with any degree of confidence. 
Having a system that can be activated shifts a portion of the risk to 
the enemy.
    Question. The Ground-based Midcourse Defense system (GMD) has only 
intercepted a target in 6 out of 11 highly scripted attempts. When is 
the next intercept attempt? Will it use countermeasures? Will any test 
in the near future incorporate countermeasures?
    Answer. The next intercept attempt, GMD Flight Test-03 (FTG-03), is 
planned for May 2007 and will not use countermeasures on the target 
reentry vehicle. The subsequent flight test, FTG-04, is currently 
scheduled for September-October 2007 and test plans currently include 
countermeasures. However, MDA has successfully tested GMD intercepts in 
a countermeasure environment in the past and we are confident, based on 
modeling and engineering, that we will continue to do so.
    (See attached two charts: GMD Flight Test Summary)
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. Why is there no operational testing planned? Isn't it 
useful to test a system under operationally realistic conditions, i.e., 
operational testing, to determine the true effectiveness of the system?
    Answer. MDA has conducted operationally realistic tests in the past 
and plans to conduct additional operationally realistic tests in the 
future. Testing under operationally realistic conditions is an 
important part of maturing the Ballistic Missile Defense System (BMDS). 
MDA has been fielding test assets in operational configurations 
primarily to provide an initial capability and to conduct increasingly 
complex and end-to-end tests of the BMDS.
    MDA has an Integrated Master Test Plan (IMTP), which emphasizes 
operationally realistic test and criteria as directed by congressional 
language. This plan is revised annually in coordination with the 
Department's Director, Operational Test and Evaluation. The plan will 
continue to expand on the combined Developmental and Operational Test 
(DT/OT) approach which focuses on increasing operational realism as we 
move from subsystem to fully integrated system-level testing for each 
block of fielded capability. The testing progression that we have 
defined in the IMTP builds upon increasing levels of operationally 
realistic scenarios, targets, and warfighter interaction. Every 
Ballistic Missile Defense System ground and flight test will include 
operational test objectives to provide data for an operational 
assessment.
    Using criteria established by the Agency's system engineers and our 
warfighters, all system ground and flight tests provide data that we 
and the operational test community use to verify the system's 
functionality and operational effectiveness. Our flight tests are 
increasing in operational realism, limited only by environmental and 
safety concerns. Each system test builds on the knowledge gained from 
previous tests and adds increasingly challenging objectives, with the 
goal of devising scenarios that test elements of the system from end-
to-end. This spiral test approach increases knowledge of, and 
confidence in, the system performance while maintaining safety and 
minimizing artificiality.
    For example, in September 2006, we conducted a long-range intercept 
flight test that exceeded our objectives. That complex test involved an 
operationally configured interceptor launched from an operationally 
configured silo at Vandenberg Air Force Base, operational sensors, and 
operationally trained crews manning the fire control consoles. The test 
demonstrated the functionality of the Exo-atmospheric Kill Vehicle and 
the ability to engage a threat-representative target using the Upgraded 
Early Warning Radar at Beale Air Force Base in California. After the 
kill vehicle acquired the target launched out of the Kodiak Launch 
Complex in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. While it was not hooked into the system, 
we also demonstrated the powerful contributions the Sea-Based X-band 
radar can make in the areas of tracking and discrimination. This was 
our most operationally realistic, end-to-end test of the system 
involving the Ground-based Midcourse Defense element to date.
    Question. If we are concerned about the treat posed by ballistic 
missiles, why is the system not on 24/7?
    Answer. [Deleted.]
    Question. What specifically is the time frame for researching and 
developing the two-stage interceptor that the Missile Defense Agency 
wants placed in Easter Europe? What is the testing schedule? What level 
of reliability must it meet before it will be deployed? What will 
happen if the European nations decide not to accept missile defense 
interceptors?
    Answer. The interceptor planned for deployment in Europe is a 2-
stage configuration of the currently deployed and flight-tested 3-stage 
booster at Fort Greely and Vandenberg Air Force Base. The booster 
contractor will complete design modifications to eliminate the third 
stage rocket motor and repackage the booster electronics that were 
located on the third stage. Additionally, navigation and guidance 
software changes will enable the interceptor to perform mission 
profiles for two stages of flight versus three. The common components 
between the 2-stage and the 3-stage booster have undergone significant, 
ground, flight, and qualification testing as part of the 3-stage 
development effort. Because the 2-stage interceptor planned for Europe 
has fewer components than its 3-stage predecessor, the planned 2-stage 
variant is a less-complex version of the successfully tested and 
fielded 3-stage interceptor.
    The GMD 2-Stage development activity has started and a Program 
Critical Design Review is scheduled to occur in December of 2008. Two 
flight tests will be conducted, both from Vandenberg Air Force Base in 
California, prior to deploying interceptors at the European Site. The 
two flight tests include a booster verification flight with an Exo-
atmospheric Kill Vehicle (EKV) mass simulator, scheduled for the fourth 
quarter of fiscal year 2010, and an integrated flight test with an EKV 
and a threat-representative target vehicle scheduled for the second 
quarter of fiscal year 2011. The Ground-Based Midcourse Defense (GMD) 
Fire Control (GFC) and Command and Launch Equipment (CLE) software 
adapted for the 2-stage interceptor will also be included in the 2-
stage intercept flight test.
    The Missile Defense Agency has identified and is currently working 
to mitigate risks for 2-stage interceptor development. Overall, the 
development and fielding for the 2-stage interceptor is low risk. The 
most noteworthy risks are with the software changes and integration 
required with the 2-stage interceptor, the CLE, and the GFC in order to 
optimize the interceptor's performance envelope. These risks will be 
mitigated through our ground and flight test programs.
    Booster modifications (3-stage to 2-stage) are neither uncommon, 
nor unprecedented. In fact, the Payload Launch Vehicles (PLVs) flown in 
the GMD program's first ten Integrated Flight Tests (January 1997 
through December 2002) were 2-stage variants of the standard 3-stage 
Minuteman boosters. So, the Missile Defense Agency has successful prior 
experience in modifying 3-stage boosters to fly 2-stage missions.
    The non-recurring engineering funding for the GMD 2-Stage 
development totals $15 million and is located in the Ground Based 
Interceptor portion of project 0008 of the GMD Program Element. Boeing 
and its subcontractor Orbital Sciences began working 2-stage activities 
February 23, 2007.
    The 2-stage interceptor reliability will be demonstrated through 
rigorous component qualification, integration testing, ground testing, 
and flight testing.
    Interceptor deployment into the European Site is scheduled for the 
fourth quarter of fiscal year 2011 through the second quarter of fiscal 
year 2013. A detailed schedule is presented in the attachment. If the 
decision were made not to deploy GBI's 45-54 in Europe, we could use 
those interceptors at Fort Greely.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             effectiveness
    Question. In March of 2003, Edward ``Pete'' Aldridge, who was then 
the undersecretary of defense for acquisition, technology and 
logistics, testified before the Senate Armed Services Committee that 
the ground-based interceptor system would be 90 percent effective. On 
July 21, 2005, you stated that there is a ``better-than-zero chance of 
successfully intercepting, I believe, an inbound warhead.'' Can you 
explain the differences in your assessments? Since you made that 
statement, have our chances improved at all?
    Answer. Since I made that statement, we have made substantial 
progress in developing testing and fielding an integrated, layered 
Ballistic Missile Defense System (BMDS). As commentary on our progress, 
I would point to testimony by the Director, Operational Test and 
Evaluation on March 27, 2007 that the ``BMDS has demonstrated a limited 
capability against a simple foreign threat'' and that ``MDA's ground 
test program was active, robust, and disciplined, demonstrating BMDS 
capability and interoperability.'' And as our testing and fielding 
continues, our confidence in the reliability and maintainability of the 
BMDS increases. The BMDS is on track to reach its specification values 
in the 2010-2012 timeframe. This means the system effectiveness would 
be in the range of 90 percent for certain threat class and launch 
locations. Our current system capability against North Korean threats 
ranges from 80 percent-90 percent for the defense of the United States. 
This is defensive capability we have not previously had and one which 
the warfighters have deemed useful to have as we continue testing and 
progress toward planned system effectiveness.
    Question. Will we ever come close to 100 percent? How much will it 
cost to get there? Where will we be at the end of this fiscal year?
    Answer. Complex weapon systems rarely achieve 100 percent 
effectiveness. Nevertheless, the GBI element of the Ballistic Missile 
Defense System is highly effective in performing its mission since we 
commit two interceptors to every threat missile in order to approach 
100 percent effectiveness. At the end of the fiscal year with our 
current shot doctrine, we achieve greater than 90 percent effectiveness 
for the interceptor. In addition, the GBI is a component of a layered 
BMDS which will allow for even greater performance. Furthermore, over 
the past five years we have made substantial progress in developing, 
testing, and fielding an integrated, layered Ballistic Missile Defense 
System (BMDS) to defend the United States, our deployed forces and our 
Friends and Allies against ballistic missiles of all ranges in all 
phases of flights. As our testing and fielding continues, our 
confidence in the reliability and maintainability of the BMDS 
increases.
    Question. Do you believe that our program has served as a deterrent 
on the nuclear weapons aspirations of either the Iranian or the North 
Koreans?
    Answer. The threats posed by rogue nations such as Iran and North 
Korea continue to challenge our notions of deterrence and defense. 
Surprise--strategic, tactical, and technical--is an expected feature of 
today's security landscape. While deterrence remains the cornerstone of 
our strategy, we recognize an increased risk that deterrence may fail. 
The actions of North Korea and Iran this past year demonstrate the 
determination of these rogue regimes to achieve a ballistic missile 
capability and potentially weapons of mass destruction to further 
aggressive ends. Under such circumstances, missile defenses are highly 
desirable as a hedge against the failure of deterrence. As the 
robustness of the capability fielded increases, we expect that the 
deterrent effect of this initial capability will only increase.
                             space test bed
    Question. The Missile Defense Agency has requested $10 million for 
the Space Test Bed. What does the system architecture look like? What 
would prompt you not to go forward with this program? Do you agree that 
this may amount to the weaponizing space? Would it compel other 
countries to move forward with their own systems?
    Aanswer. The Space Test Bed is not an acquisition program with a 
set architecture. It is a proving ground for concepts and technologies 
that might some day be integrated into a space-based missile defense 
layer should the data indicate feasibility (survivable, affordable, 
deployable, operable) and if future policy decisions permit. 
Exploration of alternative implementation architectures is a critical 
part of the Space Test Bed.
    The Space Test Bed is not an acquisition program. It is a proving 
ground for determining the feasibility of concepts and technologies. 
Activities would cease if undeniable showstoppers were discovered 
through analysis, experimentation and demonstration or if significant 
breakthroughs in global terrestrial engagement made space defenses 
unnecessary.
    No, we do not. Space ``weaponization'' arguments are not helpful, 
due to the complexities in defining what constitutes a ``space 
weapon,'' as well as the inability to identify meaningful and 
verifiable compliance mechanisms without artificially limiting peaceful 
and practical uses of space.
    The concept of the space test bed as a vehicle to conduct research 
and development of advanced technologies for space is consistent with 
the existing legal regime, based primarily on the 1967 Outer Space 
Treaty and with the President's recently-released National Space 
Policy. The Department has not made a decision to pursue space-based 
interceptors. However, should it consider deploying missile defense 
interceptors in space in the future, the debate will be greatly 
improved by a quantitative understanding of the issues.
    Space based defenses are inherently global and could serve the 
interest of mutual security. There may be powerful incentives to 
develop space based capabilities within the framework of international 
cooperation.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Question. Over a year ago, the graham panel recommended 
intensifying your flight and ground testing, while recently the 
Inspector General pointed out issues with your network communications 
security. How has your confidence in our deployed system, including the 
interceptors Fort Greely and Vandenberg, changed? Your plan calls for 
only one ground based missile defense intercept test in fiscal year 
2006; are you comfortable with that level and rate of testing?
    Answer. The Missile Defense Agency's confidence in our deployed 
BMDS is growing. If the deployed system were called upon in an 
emergency we believe that it would work based on the testing we have 
conducted to date. Recent tests conducted over the past year bolster 
our confidence as we have successfully flown the operationally 
configured interceptor. We hope to gain further confidence in our 
system's capability when we conduct an intercept flight test with an 
operationally configured GBI later this year.
    We are successfully executing our plan of continued laboratory and 
distributed asset testing at the component and system level, and are 
conducting a regimented flight test schedule with well-defined entrance 
and exit criteria in accordance with the recommendations of the 
Independent Review Team (IRT) and the Mission Readiness Task Force 
(MRTF). We have instituted a stringent pre-mission ground test program 
prior to our Ground Based Midcourse Interceptor flight test missions 
which allows us to fully exercise the ground components at Fort Greeley 
and Vandenberg prior to a flight test event. In addition, we have 
successfully demonstrated the ability to launch, fly and separate the 
Ground Based Midcourse Interceptor's Exo-atmospheric kill vehicle, 
thereby validating the modifications we made after previous flight 
tests. We have also recently conducted live tests of other key BMDS 
assets demonstrating the system's ability to detect and track live 
targets in flight using operational sensors, operational networks, and 
our operational battle management and fire control nodes.
    Our disciplined path to returning to a flight program required 
specific technical criteria to be met before the flight test could 
occur. This approach limited us to one intercept flight test in fiscal 
year 2006, but provided us with key insights to bolster confidence in 
each and every subsequent event. We plan to maintain this strategy as 
we strive to increase the flight test tempo in subsequent years, 
improve integration of Information Assurance (IA) Controls, and believe 
that this strategy helps balance the technical risks with additional 
confidence that comes from testing in more stressful intercept 
environments.
    Concerning the Department of Defense Inspector General (DOD IG) 
report on the Ground Based Midcourse Defense Communications Network 
(GCN), MDA is confident that the GCN will continue to perform safely, 
securely, and efficiently when called upon to defend this nation, our 
friends and allies against missile threats. The IG recommendations are 
matters that need attending to, and are being appropriately addressed.
                      ground-based missile defense
    Question. I'm pleased that the airborne laser has made technical 
strides during the last year. Will this program have the funding to 
meet its key milestones in 2007?
    Answer. The program has sufficient funding to accomplish the 
projected milestones in 2007. ABL is a high-risk/high-payoff program 
based on cutting edge technology in developing and integrating advanced 
optics and lasers on a flying platform. The program has made 
significant progress by successfully demonstrating long-duration lasing 
at lethal power levels in ground tests and completing flight testing of 
the integrated beam control/fire control and battle management systems 
on board the ABL prototype aircraft. The program is following a very 
aggressive schedule to complete both ground and flight tests of the 
beacon and tracking illuminators (including demonstration of 
atmospheric compensation) before the end of CY06, and completion of low 
power system testing in CY07, while the high energy laser component is 
refurbished in preparation for installation on board the aircraft in 
CY07. All these efforts are leading up to a lethal shoot-down of a 
ballistic missile in the 2008 timeframe.
    Question. Fielding Aegis and Ground Based Midcourse Defense are 
priorities for this committee. Can you assure this committee that the 
Missile Defense Agency has adequate resources allocated to the testing, 
fielding and operational aspects of the current system before embarking 
on the development of new capabilities?
    Answer. I share your views on the importance of fielding the 
Ground-based Midcourse and Aegis BMD elements of the Ballistic Missile 
Defense System (BMDS).
    In fiscal year 2007 we plan to continue the incremental fielding 
and sustainment of Ground-based Midcourse Defense interceptors; 
additional SM-3 missiles and upgrades to Aegis BMD ships; and the 
supporting sensors, command, control, battle management and 
communication capabilities required to integrate these interceptors 
into the BMDS. We have been steadily increasing the operational realism 
of Aegis BMD flight tests leading to deployment of a certified tactical 
capability later this year. In Aegis BMD, the Navy's Operational Test 
and Evaluation force is conducting concurrent testing as part of Aegis 
BMD flight test missions. We will also be pursuing a comprehensive and 
integrated approach to increasing the operational realism of our GMD 
and BMDS flight tests as well as making our ground testing program more 
robust. At the same time, we are not wavering from our commitment to 
sustaining these systems once they are in the field.
    The resources included in our fiscal year 2007 President's Budget 
request, as well as throughout the FYDP, are adequate to support our 
fielding, sustaining and testing commitments. Currently, we are 
fielding missile defense assets about as fast as we can and I can 
assure you that our budget request represents an appropriate balance 
between providing near term missile defense capabilities and preparing 
for the emerging threats of the future through our evolutionary 
development programs.
    Question. The radar at Shemya and the sea based X-Band are key 
elements of the ground based missile defense system. As such, they are 
likely high value targets in the initial phases of an attack. Does the 
Missile Defense Agency plan to protect these assets from our 
adversaries? Can you provide us that plan in a classified session?
    Answer. The overall protection strategy for the Cobra Dane Radar on 
Shemya Island, Alaska and the Sea-Based X-Band (SBX) is based upon an 
assessment of the current threat, the application of security measures 
to deter identified threats and appropriately protect the radar and 
personnel, and the Combatant Commanders planned response to actual 
threats.
Cobra Dane
    U.S. Strategic Command (USSTRATCOM) Strategic Directive 538-2, 
``Global Ballistic Missile Defense Systems (GBMDS) Physical Security 
Program'' directs protection standard at the SSL-A level. This 
specifies protection commensurate with assets for which loss, thefts, 
destruction or compromise would cause great harm to the strategic 
capability of the U.S. Cobra Dane does not currently meet all SSL-A 
protection requirements. Remoteness of the asset, severe weather 
conditions, and cost vs. risk are considerations being evaluated 
towards a decision to properly updated existing security. MDA is 
working with USSTRATCOM and Pacific Air Forces (PACAF) to conduct a 
security assessment and develop a risk mitigation plan to identify 
security systems suitable for the Eareckson environment, including 
enhanced security for the Cobra Dane radar.
SBX
    SBX is currently protected as a System Security Level-A asset in 
accordance with DEPSECDEP direction, as implemented by U.S. Strategic 
Command (USSTRATCOM) Strategic Directive 538-2. USSTRATCOM has endorsed 
MDA security and force protection measures as consistent with 538-2 for 
SSL-A.
    Geographic Combatant Commands (GCC) are responsible under the 
Unified Command Plan (UCP) for force protection oversight of SBX-1 when 
operating in their area of responsibility. While MDA is responsible for 
antiterrorism/force protection (AT/FP) of the vessel, the GCC is 
responsible for responding to attacks by adversaries during increased 
threats/wartime. Based on the Force Protection Condition (FPCON) and 
current intelligence, GCCs will direct assigned forces or request 
additional forces to protect the SBX operations, as required.
    Question. Your agency is in the initial development stages of the 
Kinetic Energy Inteceptor, which appears to offer improved performance 
during boost and ascent phase engagements. For commonality, 
supportability, and cost have we examined all avenues of improvements, 
or modifications, to the existing ground based interceptors to provide 
this capability?
    Answer. The Missile Defense Agency did examine the possibility of 
improving or modifying the existing Ground-Based Interceptor to enable 
boost and early ascent phase defenses prior to starting the Kinetic 
Energy Interceptors program in 2003. What we and multiple industry 
teams determined is that a mobile, fast-burning, high acceleration 
booster capability is required to meet boost/ascent phase mission 
requirements. The Kinetic Energy Interceptor booster has approximately 
three times the acceleration of a Ground Based Interceptor with a 
similar payload volume and weight capacity. The Kinetic Energy 
Interceptor is also half the weight of a Ground Based Interceptor; its 
physical size (length and diameter) is constrained to allow rapid 
transport on a C-17 aircraft and future integration on a sea-based 
platform. The only way to achieve this mobile weapon capability is to 
design, develop, integrate and test new booster motors. The development 
of this unique booster vehicle capability is the primary focus of the 
Kinetic Energy Interceptors program through the 2008 booster flight 
knowledge point.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
          value of test ranges to missile defense agency (mda)
    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which is located 
in New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
unrestricted airspace?
    Answer. MDA values access an installation like White Sands Missile 
Range (WSMR) for testing of Ballistic Missile Defense (BMDS) elements 
due to its geographic size and airspace. However, WSMR is not well 
suited for MDA test engagements across multiple time-zones which are 
necessary to increase confidence in the whole BMDS. We continue to 
integrate theater and regional missile engagement capabilities into the 
Ballistic Missile Defense System with a strategic engagement capability 
demonstrated for Block 04. With its size and airspace, WSMR will 
contribute to the success of the BMDS in future testing involving 
PATRIOT integrated with Command Control Battle Management and 
Communications (C2BMC) and the Theater High Altitude Area Defense 
system (THAAD). PATRIOT testing is required to assist in maintaining 
the Limited Defensive Capability of the BMDS as well as the development 
of future Blocks of the BMDS.
    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. Yes, at the developmental testing level, but not as much 
for operational testing:
  --Airborne Laser (ABL).--WSMR is well suited for firing the laser in 
        flight at diagnostic missiles during beam characterization, and 
        for some test sorties where active laser operation is not 
        required.
  --THAAD.--For ground testing, THAAD will conduct a total of 26 
        activities comprised of tests, demonstrations and New Equipment 
        Training/Collective Training. These activities will exercise 
        the Launcher, Radar, and Fire Control and Communication 
        components of the THAAD element, at WSMR and other ranges, from 
        2007 through 2011.
  --PATRIOT Advanced Capability (PAC)-3.--In fiscal year 2007 and 
        fiscal year 2008 there will be a total of two BMDS tests that 
        use the Army's PATRIOT tests at WSMR. The first test, set for 
        2QFY07, will bring C2BMC and THAAD Hardware-In-the-Loop (HWIL) 
        to exercise the latest PATRIOT and C2BMC software. MDA will 
        collect data on communications between THAAD and PATRIOT and 
        will test PATRIOT's ability to receive C2BMC engagement-
        coordination direction. For the second test, set for 1QFY08, 
        MDA will bring C2BMC and THAAD HWIL to the PAC-2 Guidance 
        Enhancement Missile (GEM) P6X-2 test to accomplish the same 
        objectives. It should be noted that the Army will be conducting 
        PATRIOT tests at WSMR in addition to MDA specific tests.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. In Block 06 and beyond, the MDA has planned engagement 
sequences that include THAAD engagement on its X-band radars and on 
system-level tracks. The WSMR flight campaigns will contribute to 
proving key functionality and interfaces as the BMDS extends to 
integrated, layered, worldwide-defensive capabilities. Accordingly, the 
MDA testing program includes THAAD flight tests and Patriot flight 
tests to demonstrate early interoperability, then integration with the 
BMDS. The C2BMC element will participate in these flight tests to 
demonstrate the situational awareness and planning functions that are 
needed to conduct regional missile defense operations.
    Question. A range-wide environmental impact statement has not been 
completed for WSMR in more than ten years. Would the Missile Defense 
Agency benefit from such an EIS?
    Answer. A decision to conduct a range wide EIS at the Army's White 
Sands Missile Range would be made by the Army and White Sands Missile 
Range, and any value to the Missile Defense Agency would be indirect. 
The Missile Defense Agency (MDA) coordinates test planning at White 
Sands Missile Range with the Army, and as new missile tests are 
identified to meet our testing goals, and as the proponent of those 
tests, the Missile Defense Agency would initiate the necessary level of 
compliance with the National Environmental Policy Act for the specific 
action. Current planned Missile Defense Agency testing at White Sands 
Missile Range is compliant with the National Environmental Policy Act.
    Question. What does the Missile Defense Agency need from White 
Sands Missile Range and New Mexico?
    Answer. THAAD returned to flight testing in 2005, and the second 
flight test of five at WSMR occurred on May 11, 2006. The THAAD program 
currently plans to conduct three additional flight tests at WSMR over 
the rest of this year and into fiscal year 2007 before moving future 
testing to the Pacific Missile Range Facility (PMRF) at Barking Sands, 
HI, where we can conduct tests of more challenging engagement 
scenarios.
    WSMR provides support for many other MDA flight tests via our 
Pacific Range Support Teams (PRST) which are teams composed of staff 
from multiple DOD ranges to support broad ocean area tests, and to 
specific MDA dedicated mobile test assets. We need the WSMR team to 
continue their outstanding support of our MDA PRST, providing critical 
mobile equipment and expertise to remote locations around the Pacific. 
While the WSMR geography seems substantial for tactical systems, MDA 
systems must demonstrate their capabilities on both a broader theater 
and global scale. This large-scale testing will require us to use large 
areas within the Pacific oceans.
    MDA and DOD continually seek more commonality of testing processes 
and tools across the Major Ranges and Test Facility Base, to enable 
more efficient and flexible testing in the future. WSMR's continued 
support of these activities is crucial.
    The C2BMC element participates in THAAD and PATRIOT testing from 
WSMR to achieve early demonstrations of element interconnectivity and 
data message transfer during live fire events. This interconnectivity 
testing is made easy by WSMR's SIPRNET on-range connectivity and ease 
of set-up and troubleshooting.
    MDA's programs take advantage of a substantial amount of 
infrastructure and technical expertise from across New Mexico. Some of 
the other areas include: Holloman High Speed Test Track and WSMR for 
lethality and survivability testing; Kirtland Air Force Research Labs 
and the ABL program office support to our Directed Energy activities; 
and Sandia National Labs for support to our FT targets, threat 
analyses, survivability, among others.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The hearing is recessed.
    [Whereupon, at 11:45 a.m., Wednesday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
